<html>
<title> - OVERSIGHT OF THE YEAR 2000 PROBLEM AT THE DEPARTMENT OF DEFENSE: HOW PREPARED IS OUR NATION'S DEFENSE?</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




 OVERSIGHT OF THE YEAR 2000 PROBLEM AT THE DEPARTMENT OF DEFENSE: HOW 
                   PREPARED IS OUR NATION'S DEFENSE?

=======================================================================

                             JOINT HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT MANAGEMENT,
                      INFORMATION, AND TECHNOLOGY

                                 of the

                     COMMITTEE ON GOVERNMENT REFORM

                                and the

                       SUBCOMMITTEE ON TECHNOLOGY

                                 of the

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 2, 1999

                               __________

                     Committee on Government Reform

                           Serial No. 106-41

                          Committee on Science

                           Serial No. 106-47

                               __________

   Printed for the use of the Committee on Government Reform and the 
                          Committee on Science



     Available via the World Wide Web: http://www.house.gov/reform
                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE
60-621                     WASHINGTON : 1999




                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                GARY A. CONDIT, California
THOMAS M. DAVIS, Virginia            PATSY T. MINK, Hawaii
DAVID M. McINTOSH, Indiana           CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELEANOR HOLMES NORTON, Washington, 
JOE SCARBOROUGH, Florida                 DC
STEVEN C. LaTOURETTE, Ohio           CHAKA FATTAH, Pennsylvania
MARSHALL ``MARK'' SANFORD, South     ELIJAH E. CUMMINGS, Maryland
    Carolina                         DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
ASA HUTCHINSON, Arkansas             JOHN F. TIERNEY, Massachusetts
LEE TERRY, Nebraska                  JIM TURNER, Texas
JUDY BIGGERT, Illinois               THOMAS H. ALLEN, Maine
GREG WALDEN, Oregon                  HAROLD E. FORD, Jr., Tennessee
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
JOHN T. DOOLITTLE, California            (Independent)
HELEN CHENOWETH, Idaho


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Government Management, Information, and Technology

                   STEPHEN HORN, California, Chairman
JUDY BIGGERT, Illinois               JIM TURNER, Texas
THOMAS M. DAVIS, Virginia            PAUL E. KANJORSKI, Pennsylvania
GREG WALDEN, Oregon                  MAJOR R. OWENS, New York
DOUG OSE, California                 PATSY T. MINK, Hawaii
PAUL RYAN, Wisconsin                 CAROLYN B. MALONEY, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          J. Russell George, Staff Director and Chief Counsel
                   Matt Ryan, Senior Policy Director
                          Mason Alinger, Clerk
                     Faith Weiss, Minority Counsel
                          COMMITTEE ON SCIENCE

       HON. F. JAMES SENSENBRENNER, Jr., (R-Wisconsin), Chairman
SHERWOOD L. BOEHLERT, New York       GEORGE E. BROWN, Jr., California, 
LAMAR SMITH, Texas                       RMM**
CONSTANCE A. MORELLA, Maryland       RALPH M. HALL, Texas
CURT WELDON, Pennsylvania            BART GORDON, Tennessee
DANA ROHRABACHER, California         JERRY F. COSTELLO, Illinois
JOE BARTON, Texas                    TIM ROEMER, Indiana
KEN CALVERT, California              JAMES A. BARCIA, Michigan
NICK SMITH, Michigan                 EDDIE BERNICE JOHNSON, Texas
ROSCOE G. BARTLETT, Maryland         LYNN C. WOOLSEY, California
VERNON J. EHLERS, Michigan*          ALCEE L. HASTINGS, Florida
DAVE WELDON, Florida                 LYNN N. RIVERS, Michigan
GIL GUTKNECHT, Minnesota             ZOE LOFGREN, California
THOMAS W. EWING, Illinois            MICHAEL F. DOYLE, Pennsylvania
CHRIS CANNON, Utah                   SHEILA JACKSON-LEE, Texas
KEVIN BRADY, Texas                   DEBBIE STABENOW, Michigan
MERRILL COOK, Utah                   BOB ETHERIDGE, North Carolina
GEORGE R. NETHERCUTT, Jr.,           NICK LAMPSON, Texas
    Washington                       JOHN B. LARSON, Connecticut
FRANK D. LUCAS, Oklahoma             MARK UDALL, Colorado
MARK GREEN, Wisconsin                DAVID WU, Oregon
STEVEN T. KUYKENDALL, California     ANTHONY D. WEINER, New York
GARY G. MILLER, California           MICHAEL E. CAPUANO, Massachusetts
JUDY BIGGERT, Illinois               VACANCY
MARSHALL ``MARK'' SANFORD, South     VACANCY
    Carolina
JACK METCALF, Washington


                       Subcommittee on Technology

               CONSTANCE A. MORELLA, Maryland, Chairwoman
CURT WELDON, Pennsylvania            JAMES A. BARCIA, Michigan**
ROSCOE G. BARTLETT, Maryland         LYNN N. RIVERS, Michigan
GIL GUTKNECHT, Minnesota*            DEBBIE STABENOW, Michigan
THOMAS W. EWING, Illinois            MARK UDALL, Colorado
CHRIS CANNON, Utah                   DAVID WU, Oregon
KEVIN BRADY, Texas                   ANTHONY D. WEINER, New York
MERRILL COOK, Utah                   MICHAEL E. CAPUANO, Massachusetts
MARK GREEN, Wisconsin                BART GORDON, Tennessee
STEVEN T. KUYKENDALL, California     TIM ROEMER, Indiana
GARY G. MILLER, California

                               Ex Officio

F. JAMES SENSENBRENNER, Jr.,         GEORGE E. BROWN, Jr., California+
    Wisconsin+


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 2, 1999....................................     1
Statement of:
    Lieberman, Robert J., Assistant Inspector General for 
      Auditing, Department of Defense; Jack L. Brock, Director, 
      Governmentwide and Defense Information Systems, U.S. 
      General Accounting Office; John J. Hamre, Deputy Secretary 
      of Defense, Department of Defense, accompanied by Gary A. 
      Ambrose, Director, Air Force Year 2000; Kevin McHale, 
      Director, Year 2000 Project Office, Marine Corps; Stephen 
      I. Johnson, Project Manager, Year 2000 Project Office, 
      Navy; Miriam F. Browning, Director for Information 
      Management, Office of the Director for Information Systems, 
      Army; Robert F. Willard, Deputy Director for Operations for 
      Current Readiness and Capabilities and Director, Year 2000 
      Office, Joint Chiefs of Staff; and R.F. Smith, Vice 
      Director, NORAD Combat Operations..........................     7
Letters, statements, etc., submitted for the record by:
    Brock, Jack L., Director, Governmentwide and Defense 
      Information Systems, U.S. General Accounting Office, 
      prepared statement of......................................    35
    Hamre, John J., Deputy Secretary of Defense, Department of 
      Defense, prepared statement of.............................    65
    Lieberman, Robert J., Assistant Inspector General for 
      Auditing, Department of Defense, prepared statement of.....    11
    Ose, Hon. Doug, a Representative in Congress from the State 
      of California, followup questions and responses............   124
    Smith, R.F., Vice Director, NORAD Combat Operations, prepared 
      statement of...............................................    99

 
 OVERSIGHT OF THE YEAR 2000 PROBLEM AT THE DEPARTMENT OF DEFENSE: HOW 
                   PREPARED IS OUR NATION'S DEFENSE?

                              ----------                              


                         TUESDAY, MARCH 2, 1999

        House of Representatives, Subcommittee on 
            Government Management, Information, and 
            Technology of the Committee on Government 
            Reform, joint with the Subcommittee on 
            Technology of the Committee on Science,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Stephen Horn 
(chairman of the Subcommittee on Government Management, 
Information, and Technology) presiding.
    Present: Representatives Horn, Morella, Ehlers, Gutknecht, 
Biggert, Walden, Ose, Bartlett, Miller, Turner, Maloney, Mink, 
Jackson Lee, Udall, Rivers, Stabenow, and Wu.
    Staff present from the Subcommittee on Government 
Management, Information, and Technology: Russell George, staff 
director and chief counsel; Matt Ryan, senior policy director; 
Bonnie Heald, director of information/professional staff 
member; Mason Alinger, clerk; Faith Weiss, minority counsel, 
Committee on Government Reform; and Jean Gosa, minority clerk, 
Committee on Government Reform.
    Staff present from the Subcommittee on Technology: Richard 
Russell, staff director; Benjamin Wu, professional staff 
member; Richard Lukas, intern; and Joe Sullivan, clerk.
    Mr. Horn. A quorum being present, the joint hearing of the 
House Subcommittee on Government Management, Information, and 
Technology of the House Government Reform Committee and the 
Subcommittee on Technology from the House Science Committee 
will come to order.
    Only 304 days remain to reassure American citizens that the 
Federal Government's computer systems, those that are most 
critical to our lives, are year 2000 compliant. Unfortunately, 
even today many governmental entities, as well as private 
organizations, are only now recognizing the potential severity 
of this problem. Some have just begun to fix their systems, 
leaving little, if any, time for one of the most important 
aspects of this effort, adequate testing. The problem is real. 
The deadline is unmovable. The House Subcommittee on Government 
Management, Information, and Technology has focused on the 
potential problem since April 1996.
    The year 2000 computer glitch, often called the 
``millennium bug,'' or simply ``Y2K,'' dates back to the 1960's 
and 1970's when computers were bulky in size but small in 
memory. To conserve limited space or memory, programmers began 
designating the year by using two digits rather than four. The 
year 1967, for example, appears as ``67.'' The first two digits 
are assumed to be ``19.'' Unless corrected, these date-
sensitive computer systems and microchips embedded in countless 
mechanical devices may misinterpret the two zeros in 2000 as 
1900, or just have sheer confusion with the ``00.'' This 
confusion could cause the systems to generate erroneous 
information, corrupt other systems or possibly shut down.
    Last week the subcommittee issued its seventh report card 
which showed considerable improvement throughout the Federal 
Government. Still, much work still remains. We will continue to 
steadfastly monitor the Federal Government's year 2000 
readiness, prodding those departments and agencies that seem to 
be lagging behind.
    I view our Department of Defense as the Nation's supreme 
national insurance policy. I sleep soundly every night, Mr. 
Secretary, secure in the belief that our national defense is 
the best in the world. However, the Department's biggest battle 
currently resides with its own computer systems that are 
paramount to its mission. The year 2000 technology challenge 
confronts many organizations, but Defense is especially 
critical to the Nation.
    Given the Department's size and vital mission, today we 
will hear the testimony from Department officials about the 
status of the Department of Defense's year 2000 readiness. 
Since November, and as shown in our most recent report card, 
the Defense Department has reported modest improvement in 
making its mission-critical systems year 2000 compliant.
    In December, the Department reported that 81 percent of its 
mission-critical systems were compliant. In February, the 
report of the Office of Management and Budget in the Defense 
Department reported only that 72 percent of its mission-
critical systems are compliant. This discrepancy shows that 
either the Department has taken a huge step backward in its 
year 2000 readiness, or the Department is inconsistent in what 
systems are critical to its mission.
    Either way, I am concerned about this inconsistency. I hope 
that we can clear it up this morning, as to what steps the 
Department of Defense is taking to solve its year 2000 issues. 
The Department of Defense also recently reported that it has 
more than 2,300 mission-critical systems. That awesome figure 
represents more than one-third of all mission-critical systems 
in the Federal Government.
    In addition, at last report the Department of Defense still 
had to repair, test, and implement an additional 636 mission-
critical systems. My concern is that while the Department has 
made good progress, there remains much work to be accomplished 
and the timeframe to do so is relatively compressed. January 1, 
2000 will not wait for anyone, not even the U.S. Department of 
Defense.
    This morning we will hear from the Defense Department's 
Office of Inspector General, which has gone over 140 reports on 
the DOD progress. We will also hear from the General Accounting 
Office, which has been doing outstanding work for this 
subcommittee on numerous Federal departments. Finally, we will 
hear from Dr. John Hamre, distinguished Deputy Secretary of 
Defense, who has proved the importance of solid management 
leadership in solving the year 2000 challenge. I look forward 
to delving into all of these views and these issues this 
morning, and I welcome today's witnesses.
    This is a joint committee hearing as I said earlier, with 
the Science Technology Subcommittee. I will now yield for an 
opening statement to the distinguished chairman of that 
committee, Mrs. Morella of Maryland.
    Mrs. Morella. Thank you. Thank you, Mr. Chairman. I am 
pleased to participate with our subcommittee jointly with you 
in the latest installment of our ongoing series of joint 
hearings on the impact of the year 2000 computer problem on our 
Nation's public and private sectors.
    This morning we turn our attention to a topic of very 
critical importance to the country, our national security. The 
very same doomsayers that initially told us that as the clock 
strikes midnight on January 1, 2000, planes will fall out of 
the sky, would also have us believe that missiles will be 
launched across the globe. We know that is not true.
    Just as we have been assured by the Federal Aviation 
Administration that the safety of air transportation will not 
be compromised, we have already heard from the Department of 
Defense that Y2K will not cause our nuclear arsenal to 
inadvertently be deployed. What the millennium bug can do 
however, is potentially render our defense systems inoperable 
so that we would not be able to respond effectively to any 
challenges to our country's security.
    In this age of weapons of mass destruction delivered by 
missiles and by terrorists, to be unprepared is to potentially 
jeopardize the safety of our Nation, and by extension, the 
world. The United States is a world leader, and we as a Nation 
are expected to lead the world. There is no alternative. For 
there is no other country capable of organizing against an 
Iraqi dictator who wants to get weapons of mass destruction. We 
are the one. There is no other country capable of sustaining 
freedom against a North Korean dictatorship actively seeking to 
get nuclear weapons. We are the one.
    We cannot allow Y2K to compromise our Nation's military 
preparedness and readiness. We have American men and women who 
across the globe are protecting our Nation and the principles 
for which this Nation has been founded. For over 200 years, we 
have placed these men and women in harm's way to secure the 
peace with a covenant that if they provide their courage and 
skill, we will provide them with the effective equipment and 
support to do their job. We must not let the Y2K bug sever that 
covenant.
    We must do all the we can to ensure that military hardware 
and the three ``C's,'' command, control and communication, are 
not endangered as a result of this computer glitch. I am 
concerned about the IG and GAO reports that reveal the depths 
of the problems at DOD, especially the Inspector General's 
recent report about the haphazard Y2K certification of our 
nuclear weapons stockpile. Defense is not a sector that can be 
taken lightly.
    Last year, Congress appropriated $1.1 billion specifically 
for the Department's Y2K efforts because we understand the 
importance of DOD's mission to our Nation. We will not allow 
for our national security to be jeopardized. We in Congress 
stand ready to help in any way that we can. It is up to 
Secretary Cohen and the President now to work with us to ensure 
that we can effectively maintain the peace throughout the world 
as we ring in the new millennium.
    I look forward to hearing our very distinguished witnesses 
today. Thank you, Mr. Chairman.
    Mr. Horn. Thank you very much. I now turn to the ranking 
minority member on the committee, Mr. Turner of Texas.
    Mr. Turner. Thank you, Mr. Chairman. I want to commend you 
and Chairwoman Morella for your leadership in trying to be sure 
that all of our Federal agencies are ready for the Y2K 
conversion process. It is a very difficult task for both the 
public and the private sector and certainly a great challenge 
for the Department of Defense.
    As we know, the Department of Defense is heavily automated. 
It relies on more than 2,000 mission-critical systems. These 
systems span diverse operational areas ranging from the 
Department of Defense command and control systems, satellite 
systems, the global positioning system, all the way to detail 
systems relating to inventory, transportation management, 
medical equipment and payment and personnel records. Its 
weapons, equipment and facilities all contain embedded 
microprocessor chips, some of which may have the Y2K date 
problems.
    As of February 1999, the Department of Defense reports that 
it has repaired, validated and implemented 72 percent of its 
mission-critical systems. However, that means that 632 mission-
critical systems have not yet been fixed and implemented. As 
many as 220 mission-critical systems may miss the federally 
imposed deadline of March 31 of this year. The Department of 
Defense also has over 2,000 non-mission-critical systems that 
still need to be repaired. Clearly, there is much work to be 
done.
    Last year, the Department of Defense Inspector General 
identified serious problems with the accuracy of some of the 
Department's reports on the number of Y2K-compliant systems. 
Today we will hear that the Department of Defense has improved 
its ability to track its Y2K work. But it will be difficult to 
know whether the Department has properly classified its systems 
as mission-critical or non-mission-critical until it completes 
its simulated year 2000 exercises and other planned testing. 
The Department of Defense faces a huge challenge in its Y2K 
conversion efforts due to a late start, the size of its 
systems, and their complexity. Although the pace of repairs and 
testing has been improved, the Inspector General cautions that 
the number and severity of Y2K problems at the Department of 
Defense cannot be quantified until, at least, June of this 
year, when additional test results will be available.
    What is more, the Inspector General expresses the concern 
that the Department's Y2K testing may be rigorous enough to 
catch serious problems, given the compressed testing schedule. 
Each of us looks forward to your testimony today. We hope to 
hear more about the testing process, the operational 
evaluations that you have conducted to date and the 
Department's assessment of its own condition. I hope the Deputy 
Secretary of Defense will also address whether our weapon 
systems will be repaired in time.
    The good news is that at the highest levels of the 
Department there is an increased focus on Y2K. The Department 
has seen great improvements in recent months. We appreciate 
each of our witnesses being hear today. Again, Mr. Chairman and 
Mrs. Morella, thank you for your leadership in this area.
    Mr. Horn. Thank you very much. We will now yield for an 
opening statement to the vice chairman of the Subcommittee on 
Government Management, Information, and Technology and that is 
Mrs. Biggert of Illinois.
    Mrs. Biggert. Thank you, Mr. Chairman. Thank you for your 
excellent work in putting together such a fine schedule of 
hearings to highlight our Nation's readiness for the year 2000. 
I too am committed to the oversight of our Federal departments 
and agencies. I am pleased that so many of our agencies are 
making progress in their efforts to become Y2K compliant. I am 
also concerned that some of our departments, especially those 
with critical missions such as our Nation's defense, have much 
work to do before they are ready for the year 2000 date change.
    The Department of Defense operates about one-third of our 
Federal computer inventory. It has identified some 2,500 
mission-critical systems. Yet, only 72 percent of these systems 
were Y2K compliant as of February this year. Admittedly, the 
Department of Defense faces a heavy burden to ready itself for 
the year 2000. Our Nation though is known for its military 
strength. Much of this military advantage comes from the United 
States' investment in information technology. However, it is 
this same technology that must be now updated, tested and 
readied for the year 2000 date change.
    The Department of Defense, I believe, has made much 
progress in its efforts to ensure continued computer capacity 
in the new millennium. I am interested to hear today's 
testimony discussing the Department's progress on its command 
and control systems, satellite technology, global positioning 
systems and highly specialized management systems.
    I, too, thank today's witnesses for coming to our hearing 
today. I look forward to the testimony and the opportunity for 
questions.
    Mr. Horn. Thank you very much. I now yield to the 
gentlewoman from the Subcommittee on Technology, distinguished 
Member from Hawaii, Mrs. Mink.
    Mrs. Mink. Thank you, Mr. Chairman. I have no prepared 
statement. I do want to say that this series of hearings that 
you have called, Mr. Chairman, on this very important issue is 
certainly keyed into the entire country's concern about whether 
this Nation is prepared for the looming coming of the year 
2000. Nothing is more important, in my opinion, than hearing 
from the Department of Defense and all other agencies and 
entities related to our defense, to see where the status of 
readiness is with reference to this very important issue. So, I 
look forward to the testimony of all our witnesses who are here 
and hope that we have made considerable progress on the 
questions that have been raised last year and currently by the 
GAO. Thank you very much.
    Mr. Horn. Now, the gentleman from California, Mr. Ose.
    Mr. Ose. I do not have a statement, Mr. Chairman.
    Mr. Horn. OK. Now we have the gentlewoman from Texas, 
Sheila Jackson Lee.
    Ms. Jackson Lee. Mr. Chairman, thank you for your kindness. 
I will only offer my appreciation to all of the chairmen and 
ranking members for holding this very vital hearing. Let me 
say, Mr. Chairman, I have found out by being in the District 
that Y2K now is the topic of discussion. This could not be a 
more vital area of oversight for the American people. They are 
looking to this Congress for guidance. They certainly are 
concerned about issues, not only of national security, which is 
the topic of this hearing, but our readiness overall. We have a 
responsibility I think, Mr. Chairman, not only to our citizens, 
but to the world. I will continue to work with you in oversight 
of this issue for our commitment to ensure the safety and 
quality of life that Americans have come to understand.
    I would ask, Mr. Chairman, that I can submit my entire 
statement into the record. I thank you for the time.
    Mr. Horn. Thank you very much. Our next opener is Mr. 
Miller of California.
    Mr. Miller. Thank you, Mr. Chairman. I really appreciate 
your conducting this hearing today on the status of the 
Department of Defense's preparedness for facing the technical 
challenges associated with the year 2000. Of all the agencies, 
DOD's Y2K compliance, to me, is of most great concern. If the 
dooms-dayers are right, and I am really praying that they are 
wrong about the seriousness of the year 2000 problem, failure 
of the DOD to inoculate their systems against the Y2K bug could 
pose many major domestic and foreign safety issues.
    I am particularly interested in hearing from the witnesses 
on whether the DOD will be Y2K compliant and what the agency is 
doing to prepare our forces here and overseas against those 
individuals or governments who may try to take advantage of 
weak times. The questions are: are we prepared to defend 
ourselves, our deployed troops and our embassies? Moreover, are 
we prepared to assist our allies if they are attacked in the 
year 2000? These are important questions whose answers need to 
be addressed. Once again, Mr. Chairman, I thank you very much.
    Mr. Horn. I thank you very much. Now I yield some time to 
the gentlewoman from Michigan, Ms. Stabenow of the Subcommittee 
on Technology.
    Ms. Stabenow. Thank you, Mr. Chairman. I would just also 
echo the thanks to both you and our Chairwoman Morella for 
holding one more hearing on this critical issue. I have held 
two series of meetings in my district in Michigan, one last 
year and one this year. I find that the concerns certainly of 
my constituents have risen. It is important that we have 
accurate information so that people know how to prepare without 
overreacting and yet being prudent.
    One issue that comes up over and over again is the 
Department of Defense, and grave concern about the progress 
that we have been making and where we will be. I am very 
anxious to hear today, and I know that my constituents are 
anxious to hear as well. I appreciate all of you being here.
    Mr. Horn. I thank the gentlewoman.
    The gentleman from Oregon on our side, Mr. Walden, waives 
his opening statement. We now turn to the other gentleman from 
Oregon, Mr. Wu.
    Mr. Wu. I have no opening statement, Mr. Chairman. Thank 
you.
    Mr. Horn. All right. Both of you go to the top of the line 
in the chairman's view. [Laughter.]
    Good freshmen, they are. They are excellent Members.
    Now, we finally get down to business. You all know where we 
are coming from after our opening statements. So let me note to 
you that the tradition of the Government Management, 
Information, and Technology Subcommittee is to swear in all 
witnesses. So, ladies and gentlemen, if you will stand and 
raise your right hands. Yes, and by the way, all the people 
behind you will take a microphone so that I don't do this 10 
times this morning.
    [Witnesses sworn.]
    Mr. Horn. The clerk will note that all have taken the oath. 
We are delighted to have all of you here. Everybody knows this 
is the department about which we have the major concern, both 
for the good of the world as well as the good of the United 
States. So, we are going to start with the first individual 
from the Office of Inspector General in the Department of 
Defense, Mr. Robert J. Lieberman, who is the Assistant 
Inspector General for Auditing for the Department of Defense. 
Mr. Lieberman will make the opening statement.
    Obviously, we would like you to summarize it. But, take 
your time if you don't want to summarize it. Give us the 
important things. A number of Members probably just flew in to 
vote today and have not had the chance to see the testimony. 
So, lay it all out there.

STATEMENTS OF ROBERT J. LIEBERMAN, ASSISTANT INSPECTOR GENERAL 
 FOR AUDITING, DEPARTMENT OF DEFENSE; JACK L. BROCK, DIRECTOR, 
 GOVERNMENTWIDE AND DEFENSE INFORMATION SYSTEMS, U.S. GENERAL 
ACCOUNTING OFFICE; JOHN J. HAMRE, DEPUTY SECRETARY OF DEFENSE, 
    DEPARTMENT OF DEFENSE, ACCOMPANIED BY GARY A. AMBROSE, 
  DIRECTOR, AIR FORCE YEAR 2000; KEVIN MCHALE, DIRECTOR, YEAR 
2000 PROJECT OFFICE, MARINE CORPS; STEPHEN I. JOHNSON, PROJECT 
 MANAGER, YEAR 2000 PROJECT OFFICE, NAVY; MIRIAM F. BROWNING, 
DIRECTOR FOR INFORMATION MANAGEMENT, OFFICE OF THE DIRECTOR FOR 
 INFORMATION SYSTEMS, ARMY; ROBERT F. WILLARD, DEPUTY DIRECTOR 
   FOR OPERATIONS FOR CURRENT READINESS AND CAPABILITIES AND 
  DIRECTOR, YEAR 2000 OFFICE, JOINT CHIEFS OF STAFF; AND R.F. 
         SMITH, VICE DIRECTOR, NORAD COMBAT OPERATIONS

    Mr. Lieberman. Good morning, Mr. Chairman, Madam Chair, 
members of the subcommittees. Thank you for the opportunity to 
discuss the challenge confronting the Department of Defense 
because of the so-called ``millennium bug.'' I would like to 
save time by verbally highlighting some of the significant 
parts of my statement and ask that the remainder be entered 
into the record.
    Mr. Horn. I might say that every statement that anybody 
makes in any hearing is automatically put into the record the 
minute we introduce you. It is a unanimous consent motion, 
forever.
    Mr. Lieberman. Thank you. The task of ensuring that there 
is no significant impairment of the Department's ability to 
execute its missions is one of the most complex challenges ever 
faced by DOD managers. This is primarily because of the sheer 
magnitude of the DOD problem. In terms of size, complexity and 
diversity, no other public or private sector organization faces 
a Y2K problem of such scale.
    In addition, with the benefit of hindsight, it is clear 
that the DOD Y2K conversion challenge has been made more 
difficult by a combination of half-a-dozen or so factors 
related to DOD management culture. The two most important of 
these factors, in my opinion, are first the legacy of very 
decentralized information technology resources management, 
which led to the runaway proliferation of systems. It has made 
it doubly hard to establish a well-synchronized and controlled 
DOD-wide Y2K conversion program.
    Second, there was an initial tendency, particularly middle-
management level of the Department, to view the millennium bug 
as a purely technical problem that could be solved by 
information technologists without a need for much involvement 
by managers and commanders.
    The IG approached the Department's Chief Information 
Officer in early 1997 with an offer to help in him achieving 
sufficient oversight and management control in those areas 
considered to have the most risk. Based on the resulting 
informal partnership agreement, we have provided 50 Y2K audit 
reports to the Department over the past year-and-a-half. We are 
currently working on about the same number of additional 
audits. Summaries of a few of these reports are attached to my 
written statement.
    In addition, we have coordinated Y2K efforts by the 
Military Department Audit and Inspection Organizations, which 
have issued over 90 reports in accordance with their own Y2K 
coverage agreements or tasking within their services. We have 
also worked closely with the GAO and exchanged information with 
our counterparts in several countries.
    I want to stress this morning that generally DOD managers 
and commanders have been extremely cooperative and responsive 
to audit advice. This includes taking measures to ensure better 
accuracy in reporting. Top DOD management's encouragement of 
intensive independent auditing of Y2K progress and its 
responsiveness to audit results, positive or negative, deserve 
note.
    Turning to the question of what these audits have shown. 
The DOD clearly got off to a slow start. In hindsight, most 
managers underestimated both the complexity of the problem and 
the commitment of resources and executive managers' time that 
would be necessary. As late as last summer, audits were still 
indicating a widespread lack of awareness, insufficient Y2K 
staffing at all levels of the Department, and only rudimentary 
Y2K planning at dozens of crucial organizations, including most 
combatant commands, most functional area staffs within the 
Office of the Secretary of Defense, many support commands and 
most installations. Although many DOD organizations were 
working hard on the remediation of mission-critical information 
systems, a high percentage of remediation plans provided for 
completion very late in calendar year 1999 and large scale 
system of systems test plans were in vague conceptual form 
only. There was even some resistance to the notions of 
modifying previously planned exercises to accommodate Y2K 
scenarios or of planning for other large scale testing.
    The decisive turning point came in early August 1998, when 
the Secretary of Defense declared that progress up to that 
point had been insufficient. His strong and unambiguous message 
that Y2K was a genuine threat to readiness had the intended 
effect. The number of mission-critical systems that have been 
certified as Y2K compliant now stands at about 72 percent, as 
has been mentioned. Somewhat behind plan, but considerably 
better than the 24 percent figure from this time last year.
    Equally important, efforts have finally accelerated over 
the past few months to assess the Y2K readiness of DOD-owned 
infrastructure, of the private infrastructure on which the DOD 
also depends, of the diverse range of data exchange partners 
and of host nations abroad. In addition, one of the largest 
testing efforts ever undertaken by the Department has now 
started and will continue through calendar year 1999.
    With sustained close management attention through 1999, we 
in the IG's office are confident that the Department can 
achieve its goal of ensuring the continuity of critical 
operations and capabilities as the millennium passes. However, 
I want to stress that much work remains to be done. No 
assessments of overall progress can be entirely credible in the 
absence of significant quantities of test results, which will 
still not be available for a few more months. It must also be 
recognized that the belated start in some areas has caused a 
fairly high risk level to persist there.
    In our opinion, those areas of continuing concern include, 
first, the well over 600 mission-critical systems that remain 
Y2K non-compliant. Second, the infrastructure, especially 
overseas. Third, supplier readiness. Fourth, untested 
contractor off-the-shelf products. Fifth, contingency planning, 
particularly at the mission or functional level. Sixth, 
mainframe computer platforms and seventh, the greatly 
compressed testing schedules.
    I would like to close with a few extra words on the testing 
challenge. The DOD Y2K conversion effort is unprecedented in 
many ways. One is the scope of the critical Y2K testing that 
will continue through the end of 1999. We cannot over-emphasize 
the need for robust, in-depth testing. The huge number of 
systems involved, the risk of incompatible Y2K fixes because of 
the number of different firms and individuals involved in 
remediating code, the late fielding of many remediated systems, 
and the compression of this ambitious testing schedule into 
just over a year, pose a formidable testing management 
challenge. In our view, effective testing is the most daunting 
of the remaining Y2K challenges.
    In conclusion, we believe that the DOD is overcoming the 
increased risk posed by its belated start in several facets of 
the Y2K conversion effort. As the intensive effort continues, 
we remain committed to our partnership with the Department on 
this difficult matter and will continue striving to provide 
DOD, the President's
Council on Y2K Conversion, the Office of Management and Budget, 
and Congress with reliable, candid and timely feedback on Y2K 
progress.
    Thank you, and I would be happy to answer any questions.
    [The prepared statement of Mr. Lieberman follows:]

    [GRAPHIC] [TIFF OMITTED] T0621.001
    
    [GRAPHIC] [TIFF OMITTED] T0621.002
    
    [GRAPHIC] [TIFF OMITTED] T0621.003
    
    [GRAPHIC] [TIFF OMITTED] T0621.004
    
    [GRAPHIC] [TIFF OMITTED] T0621.005
    
    [GRAPHIC] [TIFF OMITTED] T0621.006
    
    [GRAPHIC] [TIFF OMITTED] T0621.007
    
    [GRAPHIC] [TIFF OMITTED] T0621.008
    
    [GRAPHIC] [TIFF OMITTED] T0621.009
    
    [GRAPHIC] [TIFF OMITTED] T0621.010
    
    [GRAPHIC] [TIFF OMITTED] T0621.011
    
    [GRAPHIC] [TIFF OMITTED] T0621.012
    
    [GRAPHIC] [TIFF OMITTED] T0621.013
    
    [GRAPHIC] [TIFF OMITTED] T0621.014
    
    [GRAPHIC] [TIFF OMITTED] T0621.015
    
    [GRAPHIC] [TIFF OMITTED] T0621.016
    
    [GRAPHIC] [TIFF OMITTED] T0621.017
    
    [GRAPHIC] [TIFF OMITTED] T0621.018
    
    [GRAPHIC] [TIFF OMITTED] T0621.019
    
    [GRAPHIC] [TIFF OMITTED] T0621.020
    
    Mr. Horn. Thank you very much. We are going to withhold all 
the questions until all the witnesses have testified. Our next 
presenter is Mr. Jack L. Brock, the Director of the 
Governmentwide and Defense Information Systems for the U.S. 
General Accounting Office, the auditing on both finance and 
program arm of the Congress and the legislative branch. Thank 
you.
    Mr. Brock.
    Mr. Brock. Thank you, Mr. Horn. Thank you, Mrs. Morella and 
members of the two subcommittees. I am pleased to be here 
today.
    Before I start, I would like to say that we have worked 
very closely with the DOD IG during the course of our audits 
and they have done commendable work and I think have added an 
immense amount of credibility to what the Department is trying 
to do to be Y2K ready. I would also like to say that if we had 
testified last year, our message would have been far more grim 
than it is today. I would like to congratulate the Department 
on an incredible amount of progress that has been made over the 
past year. A lot of that progress has to do with the very much 
increased level in presence of top management within the 
Department assuming ownership and control over the problem.
    It still faces major issues in being year 2000 ready. I 
think this is a situation where the risks are so great and the 
need for insurance is so great, it is like going to a party and 
you don't want to risk your pants falling. Not only do you want 
to wear a belt, but you want to have suspenders on as well. 
What we would like to see here are the presence of additional 
controls that will allow increased assurance that risk will be 
minimized and that business processes and war fighting 
processes will work. We are no longer talking about systems, 
because the systems have to operate in an environment of 
business operations. These operations depend on a variety of 
factors, not just a system. I think the Department is moving 
into that realm, but we have a few items of advice.
    Mr. Lieberman I think correctly described the complex 
organization that the Department is. It clearly, of all the 
Government agencies and possibly of any entity in the world, 
has the most complex set of operations to carry out. Many of 
the other hearings that you have had on Y2K have dealt with 
agencies that are primarily engaged in transaction processing, 
very complex operations that pale in light of the complex 
command and control, weapon systems, and other types of systems 
that the Department has to field and make sure is ready.
    In that backdrop, I would also like to say that the 
Department has a history of very poor management over 
information technology. In fact, we would argue that some of 
its success has been the ability to tap vast sums of money to 
overcome problems in development. In fact, these poor controls 
in management process have limited the effectiveness of their 
Y2K program. I think there are lessons to be learned from this 
that we will address later, but this was an initial barrier to 
the Department in getting on top of its program.
    I also agree with Mr. Lieberman that the program really 
began to turn around last summer when both Deputy Secretary 
Hamre and Secretary Cohen issued very strong letters to the 
Department saying, ``We are running behind. We need to make 
fixes. We need to start focusing on our key functional and 
operational capabilities to make sure that these functional and 
operational capabilities will be able to continue after the 
year 2000.''
    I would like to highlight a couple of things that the 
Department has done in that regard. First of all, it has had a 
very high level of involvement in ownership of the problem by 
senior management. Second, in turn the Department has now 
shifted its focus toward ensuring the continuity of core 
business processes and military operations. More specifically, 
I would like to identify five areas that the Department has 
done.-
    First, last summer the Secretary of Defense directed the 
commanders-in-chief to plan and execute a series of simulated 
year 2000 operational exercises. These exercises are 
essentially to determine whether the Department can carry out 
critical military tasks with the systems' clocks rolled forward 
to the year 2000. These are such things as providing strategic 
early warning, deploying and maneuvering forces, and employing 
fire power. Thirty-one such evaluations are now scheduled 
through the fall of 1999. Second, the Department is requiring 
its principal staff assistants, these are the Under Secretaries 
and Assistant Secretaries that own the functional areas of the 
Department or have responsibility for those, to conduct end-to-
end tests to ensure that the systems that they have 
collectively support core business areas and can inter-operate 
in a year 2000 environment.-
    The Department originally designated five functional areas: 
communications, health and medical, intelligence, logistics and 
personnel, and has since added weapons and finance to those 
functional areas. Third, the military services commanders are 
conducting integration testing of their systems. This testing 
is intended to build upon completed systems renovation testing 
and certification, and ultimately is designed to reduce risk 
and ensure the ability to execute critical combat missions in a 
year 2000 environment.-
    Fourth, Defense directed installation commanders to ensure 
that the 600-plus installations scattered all over the world 
will be ready to house both the military and civilian work 
force, as well as the weaponry and supporting activities that 
are necessary for national defense.-
    As you can gather from these four things, they are pretty 
complex and diverse. Last, the Department has initiated what 
they call ``synchronization meetings'' that are chaired by the 
Deputy Assistant Secretary of Defense and the Joint Chiefs-of-
Staff Year 2000 Task Force leader. These are designed to 
improve and facilitate coordination of the activities that cut 
across organizational boundaries.-
    Because of the complex interrelationships between these 
activities, we have recently begun additional audit work, Mr. 
Chairman, to look at those relationships and to see how well 
they are being carried out. While we don't have a complete 
answer on their success or on their progress, we do have a 
number of observations that we are prepared to make on those.-
    First of all, I would like to say that the initial 
operational evaluations carried out by the CINCs have been 
successful. The guidance that was provided by the Joint Chiefs-
of-Staff was excellent. It was very much in line with our own 
criteria and we found it very useful in conducting our audits. 
The exercises that have already been conducted at NORAD and the 
Strategic Command have gone pretty well. Last week I had staff 
at NORAD and they were looking at NORAD's test of the missile 
warning operational evaluation. My team there said that the 
test worked. It was primarily to look at processing responses 
to airborne threats.
    The operational evaluation was very carefully planned. They 
followed the test script. The results showed no Y2K failure. 
There were a number of relatively minimal system failures that 
were not related to Y2K. The staff and personnel at NORAD were 
able to take care of these and to successfully move the test 
on. As the course of these operational evaluations continue, we 
will continue to follow their progress as well.
    However, because of the interrelationships of systems all 
across the various commands and all across the functional areas 
of DOD, many of these planned evaluations will require 
extensive support from the functional areas, such as 
communications and logistics. For example, when we were talking 
to officials at the Strategic Command, who were doing a five-
phase operational evaluation program, they indicated that they 
required extensive support from DISA. DISA is the agency within 
the Department of Defense that supplies communication and 
computing support. They provide support to the Strategic 
Command on its communications backbone. The initial phase of 
this plan had to be delayed because of one of DISA's programs 
not being ready for testing. There are all sorts of 
dependencies that exist among these tests that have to be 
carefully monitored to make sure that the tests can be 
completed.
    Finally in this regard, our initial reviews of the plans 
for functional areas, these are the health, personnel, finance, 
logistics, et cetera, show these plans have mixed results. Our 
review has shown mixed results. For example, while each of the 
functional plans discusses business functions supporting 
systems and testing requirements, many of the plans lack 
important details such as a test schedule, complete data for 
contingency plans or detailed mapping of systems and support 
activities to business functions.
    While DOD has correctly shifted its emphasis to continuity 
of business processes rather than the status of individual 
systems, its controls and reporting mechanisms are still 
centered around individual systems. To effectively manage the 
program in the future, we believe that managers and executive 
decisionmakers need reliable information about the nature and 
status of year 2000 conversion efforts from a core business 
process. This isn't readily available in DOD.
    For example, although the functional areas and commands 
have been instructed to develop testing and contingency plans 
based on business functions, the overall DOD Y2K management 
plan and supporting guidance have not been updated to reflect 
reporting and control mechanisms that need to be in place to 
reinforce this shift in focus. It is entirely conceivable that 
every component, every command and every function is developing 
appropriate plans with an appropriate level of control to 
ensure that the right thing is being done at the right time. 
There is simply not a mechanism to provide assurance. Our 
reviews, for example, of the functional plans, suggest an 
uneven level of planning and execution across the Department.
    We believe that the Department needs greater visibility 
into the core business processes throughout the agency. 
Specifically, for each core business process identified, the 
Department should determine the following. First, the status of 
each supporting information system critical to that process, 
including its schedule for remediation and testing--this 
information is largely being gathered now. Second, the source 
and year 2000 status of any suppliers or vendors that are 
critical to that process. Third, the status of outside 
dependencies that affect readiness. Fourth, interfaces with 
other processes and outside organizations. Fifth, the scope and 
schedule of end-to-end testing for the process. And sixth, the 
scope and schedule for business continuity planning for that 
process to continue.
    For any of these elements that are behind schedule, Defense 
needs to know what steps will be taken to get the schedule back 
in line, and what steps will be taken to minimize the risks 
that might be associated with delay. Once the assessments are 
complete, the Department is going to be in a better position to 
take an overall look at their prospective readiness; to 
identify gaps or unnecessary overlaps; to reallocate resources, 
if necessary, and to develop comprehensive business continuity 
plans that cut across organizational lines.
    Additionally, the Department needs greater assurance that 
the information being provided is consistent, both in terms of 
content and accuracy. To this end, the Department needs to 
provide standard expectations for both content and reporting 
requirements and performance metrics for all of the above 
elements, and to establish control mechanisms that ensure 
reported information is both complete and accurate.
    Finally, just to make a few remarks. I mentioned earlier 
that GAO has long had a concern with the Department's 
information management. In fact, since 1995, this area has been 
on our high risk list. One of the major barriers to effective 
information that we have observed within the Department is 
their inability to cut across stovepipes and overcome cultural 
inertia to change. They have plenty of processes, but no 
action.
    I think now we are seeing a shift. In the Y2K program, we 
have seen a lot of shift in management attention, willingness 
to cut across program lines--maybe not as many processes as we 
would like--but a real shift. The lessons learned from Y2K can 
be transferred to their overall management of information 
technology. While this might be an expensive lesson, it will be 
an important one, and hopefully worthwhile for the Department.
    That concludes my statement, Mr. Horn.
    [The prepared statement of Mr. Brock follows:]

    [GRAPHIC] [TIFF OMITTED] T0621.021
    
    [GRAPHIC] [TIFF OMITTED] T0621.022
    
    [GRAPHIC] [TIFF OMITTED] T0621.023
    
    [GRAPHIC] [TIFF OMITTED] T0621.024
    
    [GRAPHIC] [TIFF OMITTED] T0621.025
    
    [GRAPHIC] [TIFF OMITTED] T0621.026
    
    [GRAPHIC] [TIFF OMITTED] T0621.027
    
    [GRAPHIC] [TIFF OMITTED] T0621.028
    
    [GRAPHIC] [TIFF OMITTED] T0621.029
    
    [GRAPHIC] [TIFF OMITTED] T0621.030
    
    [GRAPHIC] [TIFF OMITTED] T0621.031
    
    [GRAPHIC] [TIFF OMITTED] T0621.032
    
    [GRAPHIC] [TIFF OMITTED] T0621.033
    
    [GRAPHIC] [TIFF OMITTED] T0621.034
    
    [GRAPHIC] [TIFF OMITTED] T0621.035
    
    [GRAPHIC] [TIFF OMITTED] T0621.036
    
    [GRAPHIC] [TIFF OMITTED] T0621.037
    
    [GRAPHIC] [TIFF OMITTED] T0621.038
    
    [GRAPHIC] [TIFF OMITTED] T0621.039
    
    [GRAPHIC] [TIFF OMITTED] T0621.040
    
    Mr. Horn. Thank you very much, Mr. Brock. The GAO always 
gives us a lot of helpful comments. We appreciate it.
    We now are going to the Deputy Secretary of Defense, Dr. 
John Hamre, who is accompanied by a number of the program 
directors. Now I am going to sort of have to juggle things here 
to let the Deputy Secretary of Defense get back to work, 
because he is going to be back up here this afternoon.
    Mr. Hamre. I have another hearing.
    Mr. Horn. So, I think I am going to ask one question here, 
and then give the statement. Then every Member will have a shot 
at you here, so to speak. I would just ask this. You have heard 
the IG and you have heard GAO. Do you have any reaction to 
their testimony at this point?
    Mr. Hamre. Sir, I have a couple of reactions that I think 
will come out in the context of the statement that I am going 
to give.
    Mr. Horn. OK, fine.
    Mr. Hamre. By and large, we have had a very open process. 
We meet on a monthly basis, and Jack Brock sits through these 
endless sessions with me and has been at every single one of 
them. I have been grateful to have him there, as has Bob 
Lieberman.
    Mr. Horn. And he hasn't won the Scowcroft Award by going to 
sleep or anything? [Laughter.]
    Mr. Hamre. No. He has woken me up a few times, I must say. 
I really thought this was going to be a hostile hearing, at 
first. You started with an accusation that over at the 
Department we had too much bulk and too little memory. I 
thought you were talking about me.
    Mr. Horn. I was talking about the 1960's computers.
    Mr. Hamre. OK. Yes, our computers. I'm afraid I might 
qualify as well. [Laughter.]
    May I say at the outset, that the most important people--
the Secretary, you are right, was the catalyst that got the 
Department focused. But we have four kinds of catalytic 
converters here. It is Art Money, who is going to replace me 
when I have to get up and leave, and he is our Assistant 
Secretary of Command Control Intelligence; Marv Langston, who 
is his Deputy, has really been riding shotgun over this, and 
his trusty agent, Bill Curtis, has been doing absolutely all of 
the legwork for the Secretary. Bob Willard here has been for 
the Joint Staff, really pulling the test environment together. 
These are the four individuals that I needed to highlight to 
you. They have been absolutely instrumental and have done a 
terrific job. I will ask Art to step in, very briefly, after I 
leave.
    Sir, it is rare that any military organization knows 
exactly the time and the place when the enemy will attack. 
Indeed, we are largely preparing ourselves, in the strategic 
sense, for opponents that we will confront. Rarely do we know 
exactly when the enemy will attack and exactly where the enemy 
will attack. This is an exception. We know exactly where it is 
going to be and we know exactly when it will happen. It isn't a 
matter of just computer geeks not keeping our computers 
running. It is warriors, like Bob Willard and others, who are 
not going to be able to do their job if we are not ready. So, 
this is not about management. This is about being able to 
protect and defend the United States of America.
    I would like to put the bottom line right up front. We will 
be able to protect and defend the United States of America on 
January 1, 2000, and on the second and on the third and every 
day after that. That is not just our computer systems that run 
personnel records or accounting. That is our war machines, 
those things which will go out if we have to ask them, to take 
to combat the enemy. We will be ready. I will go through that 
today.
    With your permission, sir, I would like to go through a 
series of charts just to try to illustrate what it is we are 
going to do. Can I get the first chart please?
    [Chart shown.]
    Mr. Hamre. This is where we stand right now and this is the 
progress. If it is red, it is what we have reported. If it is 
the dash line, it is where we are against our totals. We have 
2,300 systems that we need to have fixed if we are going to be 
able to carry out our missions. This is across the board. This 
is everything from an aircraft carrier and all the systems on 
the aircraft carrier, to intelligence systems, to accounting 
systems, to finance for payroll, the whole works.
    At the end of December we had 1,673 systems. Today, I think 
it is 1,730, something like that; 1,722 systems are fixed as of 
today, and validated as being fixed.
    Mr. Horn. On that point, ``fixed'' and ``validated,'' is 
there room for testing here?
    Mr. Hamre. Yes, sir. That is all going through with the 
systems testing, not the end-to-end operational functional 
tests that Jack was talking about. But it is systems testing. 
So before they can ever get permission to be put on that column 
as being ``filled,'' they have to be fixed, and an independent 
source has to validate that it has been fixed.
    As you can see, we are stretching out. You will see by the 
next chart we will be in 90 percent, 93-94 percent here by the 
end of March. We will make 100 percent of our goal by the end 
of the year.
    Let's go to the next chart, if we could.
    [Chart shown.]
    Mr. Hamre. Seventy-three percent of the systems were 
totally fixed and fielded. You see these bars here that have 
that little shaded area at the top? That is meant to represent 
that the system is fixed, but is not completely fielded. So, 
Brother Johnson is here with all of the ships out in the Navy. 
Not all of the ships may be completely fitted with a fix. But 
those that are going to war will be fitted. What you are seeing 
here of that differential is the difference between: we know 
the software works. We know it works when it is installed, but 
it isn't in every single ship, for example. Or it is not every 
piece of equipment. As you can see, it narrows down and gets 
smaller.
    By the end of the year, we will have six systems that are 
not going to be year 2000 compliant out of the 2,300. In those 
six, the fix is done. It is just a fielding issue. The ship may 
not go to sea for another 14 months. So this is just an example 
of it's fixed, not fielded. But it doesn't matter. OK?
    As you can see, we will by March have 93 percent of the 
systems fixed. What I would like to do is to show three 
followup charts that illustrate how we are tracking 
individually.
    Let us go first to the Army.
    [Chart shown.]
    Mr. Hamre. First of all, the bar when it is red, it is 
still being fixed. When it is green, it is fixed but is still 
being fielded. So as you see, the top three systems will all be 
fixed. They will be fixed by the summer. It just takes 
virtually a day to get it installed. It does not take any time.
    For the systems below that, as you can see, there tends be 
a longer implementation period. But in each case, we have got 
the fix largely in hand and it is just being fielded.
    Now these are the 10 most important systems out of the 
Army. There are 24 all together that are not fixed right now. 
These are the 10 most important. We are tracking every one of 
them. We have got witnesses here that know every single fix, 
down to where the electrons go. So if you want to ask any 
questions about them, we can.
    Mr. Horn. I understand from staff that we don't have these 
charts.
    Mr. Hamre. Be glad to give them to you.
    Mr. Horn. I would like them put in the record at each part 
of your presentation. I realize your color charts are way ahead 
of the congressional and GPO charts. We have a little problem 
distinguishing green and red. It is always in versions of 
black.
    Mr. Hamre. I understand. We will annotate them. Could we go 
back to the previous chart? I just wanted to make a point on 
something.
    Mr. Chairman, in your opening statement you said that we 
were reporting 81 percent fixed, but the report that you got 
from OMB said that we were only 62 percent fixed, or something 
like that. I will tell you what the problem is. It is a useless 
reporting requirement that is not doing anyone any good. We 
submit these reports. They are a couple of months late by the 
time it goes through all the building and writing a thick, darn 
report. Our preference would be to have your staff come over 
and sit in on our monthly sessions. You can see the data the 
day we do it.
    Mr. Horn. I think some of them have.
    Mr. Hamre. Instead of us generating a report that is 2 
months late and does not give you information and just confuses 
you, thinking that we are slipping back, I would rather have 
you there looking at the stuff we are looking at. It would make 
a lot more sense.
    Mr. Horn. I will take your invitation up. We have had staff 
in your meetings.
    Mr. Hamre. Yes, on several of them. We would be glad to 
have them attend our monthly meetings. It would be great.
    That is where we are today, 81 percent. We will be at 93 
percent. We will make 100 percent.
    OK, let's go two down to the Navy charts, if we could.
    [Chart shown.]
    Mr. Hamre. Same situation, where we are showing you the 10 
most important. In this case, as you see, largely it is a 
fielding issue. If it is a long, green bar, it is largely a 
fielding issue. In very few cases, for example the backup 
mission planning system for Navy SpaceCom, is one that is late. 
It is a backup system. It is not our primary control system for 
our satellites.
    OK, next chart. Let's go to the Marine Corps.
    [Chart shown.]
    Mr. Hamre. Only three systems. The thin red line. You know 
they don't have much, but they are getting it fixed. It is 
going to be just fine.
    OK, next chart, Air Force.
    [Chart shown.]
    Mr. Hamre. Air Force is doing very well. As you can see, it 
is largely fielding questions and will easily be done. Mrs. 
Morella mentioned GPS, or Mrs. Biggert mentioned GPS. GPS will 
be fixed. We have a somewhat additional, different problem. 
There is a thing called the ``end of week'' problem that occurs 
this fall which we have fixed. The satellites are fixed. The 
ground stations are fixed. The Government-licensed receivers 
are fixed. But if people have made a non-licensed receiver, 
they may have problems. We have been trying to advertise this 
because it is an important technical detail associated just 
with the GPS system. But we will be ready. Any war machine will 
be ready for it. Again, we would be glad to go into any of the 
details behind any of these.
    Here is where we are with nuclear command and control 
systems. As you can see, the green bar is where it is completed 
and totally fixed. The yellow is where it is completed and not 
completely fielded. As you can see here, by the end of March we 
are going to have all but 12 systems completed, some in some 
various phase of fielding. This is absolutely everything. This 
is from the early warning satellites, to the radars, to the 
command and control displays at NORAD here in town, down to the 
mission planning systems for the nuclear systems, down to the 
stewardship custodial systems that we have for individual 
warheads. Everything is being tracked. We will be done and 
fully tested by the last quarter of the fiscal year. There is 
no risk that the Department of Defense cannot manage and 
control its nuclear weapons.
    OK, next chart.
    [Chart shown.]
    Mr. Hamre. I just would like to take a moment to explain. 
There is a proposal that we have made to our counterparts in 
Russia. We are not worried about their control over their 
nuclear weapons. This is a country and a government that has 
emphasized control over everything else. We are absolutely 
convinced that there will be positive control over nuclear 
assets. We are less optimistic that their early warning systems 
will function. We don't think the early warning systems are all 
of a sudden going to show satellite tracks of attacking 
warheads or anything like that. We don't know how you would go 
from a computer glitch to trajectories of an attack profile. We 
don't think that will happen.
    But it is possible that computer screens could go blank or 
could be interrupted. In this world, we are not interested in 
having a lot of confusion and doubt. So we have approached our 
counterparts in Russia and have invited them to join us in a 
center for Y2K strategic stability. We will have an early 
warning center. We modeled this after the air traffic control 
center that we operated in Berlin for 25 years.
    For 25 years, when Berlin was still a divided city, the 
United States, Russia, France and the United Kingdom jointly 
operated an air traffic control center so that there would not 
be any confusion in people's minds about aircraft coming in. 
Every airplane had to be logged in advance. There were 
coordination procedures. We felt that the best thing to do was 
to do that together in one room. That is our model for this. We 
will be ready this fall. We will be ready in the last quarter. 
We have invited our counterparts from Russia to come over and 
join us at the center. They will have their own communication 
links so they can get back home secure, on their own. They can 
look at our machines just in case there is any disruption that 
they might have. We think that this is an important 
contribution to stability. This is something that we are 
pursuing quite aggressively.
    Mr. Horn. I would agree with you. Have you had a reception 
of this that is positive?
    Mr. Hamre. Sir, yes, we have. There has obviously been a 
bit of concern by both parties. You know, we are anxious to 
have them join us. We have to do it in a way where they cannot 
look back up our system and determine what the configuration of 
our system is like and any vulnerabilities it might have. 
Similarly, they are always apprehensive that this is somehow a 
plot, you know. We are going to spy on them or something. So 
there is a natural reticence that always comes when we approach 
things like this.
    We just had a team over, I think it was a week ago. They 
had very good discussions. There are going to be followup 
discussions, I think, next month. We have been talking with 
them more widely about year 2000. Mr. Money can describe that 
to you because of our efforts with them. But I think that we 
have received a good response. I rather think this is going to 
happen. I think it is a confidence-building measure that both 
parties understand and think would be important. I might say 
that I think we are prepared to offer this to other countries 
too, if we feel that we need to provide a reassuring 
environment.
    Mr. Horn. Well, that was going to be my next question. What 
about some of the nuclear countries that are not too 
cooperative with us?
    Mr. Hamre. I think our view is that this is a stabilizing 
contribution that would be useful to others. We of course have 
to work this out collaboratively. We are open to discussing 
that with people. There are no impediments on our side to 
wanting to talk to people about that.
    OK, let's go to the next chart.
    [Chart shown.]
    Mr. Hamre. I'll break this down. This is just general 
timelines. There is no real precision to it. The axis at the 
bottom shows you the dates. We started the remediation some 
time back. It will continue right up until probably November. I 
think some of the last systems do not field until probably 
November. There has been contingency planning going on along at 
the same time. Every one of these systems has to have a 
contingency plan if there is failure. These are the gents at 
the table here that are the individuals responsible for 
developing those contingency plans, if we have problems.
    Operational testing has begun. As a matter of fact, I will 
ask Admiral Willard to describe a test that he just observed 
out at our Southern Command. I would ask your permission, Mr. 
Chairman, for Colonel Smith to give a brief report on the test 
we just did at NORAD, both in December and just last week, to 
give you a sense of what the operational testing environment is 
like.
    We have designated the Y2K operations period from I think 
it is September 1st through March 31st. There will be a special 
command and control, as it were, over our systems for that 
period. I will describe the significance of that by going to 
the next chart.
    [Chart shown.]
    Mr. Hamre. What you see here are test periods. Again, the 
axis on the top shows you the months of the year. On the 
vertical axis is our various military war fighting command. So, 
USACOM is the Atlantic command. There is a Central Command, the 
European Command, the Pacific Command, Forces Korea, all of our 
CINCs. What the Secretary did was he said, ``This is a war 
fighting issue. Are we going to be able to defend the country 
or not? I am going to put the CINCs in charge of testing, 
because they are going to have to live with the results.'' The 
first sense of discipline in the system was to say that we were 
not going to take anybody's word except for the guys that are 
going to live or die if it does not work.
    We put the CINCs in charge of testing. These are the test 
windows. We are going to just discuss one of them when I ask 
Colonel Smith to do it, down where you see where it says 
``NORAD,'' the third up from the bottom. There were some tests 
that were done back in December. He has just done some tests in 
February and I will ask him to give a brief description. We are 
doing literally hundreds of tests. This is the most 
sophisticated testing environment that has been established, I 
think, in the Department to prove out that this stuff works.
    Let me go to the next chart.
    [Chart shown.]
    Mr. Hamre. This shows you the testing that is being done in 
functional areas, not just the war fighting systems. Now let me 
go down in, for example, Finance. I used to be the Comptroller, 
so I was concerned about this. An example of what we are doing 
in Finance is that we are doing an end-to-end test where the 
payroll clerk will leave an earning statement for an individual 
and will see that those electrons get over to the Defense 
Finance and Accounting Service to authorize payment. That will 
go to the Federal Reserve, which will take the electrons and 
pass them to the banking system. The banking system will route 
them to a correspondent bank, the correspondent bank into the 
service member bank. Then we will see if all of the accounts 
clear.
    That is the kind of end-to-end testing that we are doing, 
for example, in the finance world. We are doing that kind of 
end-to-end testing in each one of these areas. It is very 
extensive testing going on here for the next 4 to 6 months. 
Now, generally, you will see blocks. Some of them are 
designated as backup blocks in case we uncover some problems. 
So far, what you will see is that the testing has gone fairly 
well. In other words, the test fixes that we identified when we 
did the systems tests and proved in the systems tests have 
carried over to the end-to-end tests. That has largely been our 
experience.
    We have also found that in the systems tests that some of 
the commercial products that we have been given that were told 
were fixed, really were not fixed. We were able to quickly 
identify what the problems were. This kind of a rigorous test 
environment is letting us get on top of the problem and be able 
to get things turned around very quickly.
    Before we go to the next thing, I wonder if I could just 
ask Admiral Willard to talk briefly about his experiences he 
just had watching the SOUTHCOM test.
    Admiral Willard. Good morning, sir. I would like to talk 
about a test that was conducted by the Commander in Chief 
(CINC) of Southern Command (Southcom) and it had to do with 
their mission in performing counternarcotics operations. 
Specifically in support of that mission, they were examining 
their ability to detect, track, and monitor both aircraft and 
vessels on the sea, as well as source-zone targets in the 
countries of South America. They examined their abilities to 
hand off to their joint counterparts, as well. It was a 
collaborative effort between headquarters of SOUTHCOM and the 
interagency task forces that exist to support counternarcotics 
operations radar site, as well as aircraft and ships at sea 
that were participating in the exercise.
    In all, they tested over 30 systems, of which 24 in the 
architecture included clocks or date functions. They 
encountered no hard failures in any of their systems. They 
encountered one, what they termed a ``soft failure,'' that was 
year 2000 related, having to do with a message handling system 
and specifically, an archive function of the message handling 
system. Though it did not impact their operations, it was 
nonetheless considered a Y2K minor failure. They also uncovered 
a couple of other systems failures that were not associated 
with the year 2000 but, interestingly, were date functions 
within all of the systems, whether they had Y2K related clocks 
or not. So they were uncovering a good deal about themselves.
    They published some very good lessons learned that we are 
sharing with the other commanders in chief, the unified 
commanders, who are readying for their own operations 
evaluations. Also, in their preliminary report, they reported a 
number of ancillary benefits that they have derived from this 
entire process: a better understanding of their own 
architectures; a better understanding of how they interact with 
their supporting agencies; in fact, a better understanding of 
their entire mission area. We are finding that we not only 
derive benefits in terms of our confidence level and our 
ability to deal with the year 2000 issue, but we are deriving a 
number of other departmental benefits, as well.
    Mr. Horn. Well, I am delighted to hear that because I have 
visited the Southern Command about 2 or 3 years ago, and 
watched what they have been doing on narcotics. I was very 
impressed with the coordination that has finally been occurring 
over the last few years among all relevant agencies.
    Have we still got so many flights ending up over the waters 
of Puerto Rico that we had 3 years ago? It is really 
unbelievable.
    Admiral Willard. The answer to that is, yes, sir. We are 
continuing to be successful.
    Mr. Horn. I am impressed by that end-to-end testing. I 
think that has been our worry from day one. I agree with you 
completely. This ought to be an exercise which cleans up the 
management flow-through of decisionmaking and other things. Get 
rid of some and keep the others. I hope that exercise has been 
just what you say it is in other commands.
    Mr. Hamre. Sir, we will give you an example of that just 
shortly. If I might go to, I think this is the last chart.
    [Chart shown.]
    Mr. Hamre. I would like to explain something. We are 
shifting over our focus. By the way, I agree with what Jack 
Brock said to you. We do need to shift our focus from systems 
now to functional agencies. I think we are doing that. I will 
be glad to sit down with Jack to figure out if there are some 
things we need to improve in our process. I think that is the 
right focus.
    I would like to shift and conclude here by saying if there 
are going to be problems, the Department of Defense is going to 
get asked to try to help remediate them here in the United 
States.
    FEMA doesn't have its own helicopters. We have helicopters. 
When there is flooding, they ask us to show up and do the 
relief activity. If there are hurricanes that come ashore, we 
are the ones that set up the tent cities and pump the clean 
water and deliver food. So we know we are going to be called to 
respond if there are problems in the United States.
    We also know that we have to have a process where we do not 
respond and put at risk our ability to fight a war if we have 
to. So we have developed a system of priorities. The Secretary 
has approved this. We can allocate our resources, at least 
think about them in a rational manner, when we are responding 
to the consequences. Our first priority is to fight and win a 
war, if we have to.
    First of all, any unit, right now, its day-to-day mission 
is to carry out an on-going military operation, to carry out 
on-going intelligence operations, to protect and support the 
national command authorities, to do those kind of ``survival of 
the Nation'' functions. Any unit that is assigned to do that 
may not divert its resources to anybody for anything, without 
getting the permission of the Secretary of Defense. That is 
priority No. 1.
    Priority No. 2 is any organization that is an early 
deployer for a war, if we have to get involved, and by this we 
mean within the first 60 days, we will let that unit commander 
help out locally. But they may not consume material, resources, 
and supplies that cannot be recovered within 60 days, without 
getting the permission of the chairman of the Joint Chiefs. We 
are not going to compromise or sacrifice our ability to get 
ready to deploy for a major war if we have to.
    After that, all commanders are authorized to make resources 
available to help out locally. There is going to have to be 
some rationalization process. We think that the next most 
important thing is, priority No. 3, supporting our sister 
agencies in the Federal Government. We don't want to have a 
problem with the Federal penitentiaries. I am not forecasting 
there will be, but that is clearly an area where we are going 
to be helpful if we are asked to be helpful. We want to help 
our brethren in the Customs Service if something comes up in 
the FAA.
    Let me give an example. We have the ability in the 
Department of Defense, of course, to set up our own air traffic 
control. When we send a deployment, for example, to Bosnia, we 
don't necessarily trust the local air traffic control system. 
So we set up our own, complete with air traffic control towers 
and radars, approach radars, et cetera. We can do that for 
several dozen locations at once. If we have problems here in 
the United States, we are prepared to help set up air traffic 
control. But we need to know that we are not going to do that 
and put at risk our ability to support a war plan. It is that 
sort of rationalizing of scarce resources so that we can make 
sure we can do it without jeopardizing our primary mission. 
That is the purpose of this process.
    Mr. Horn. Has the FAA Administrator or the Secretary of 
Transportation asked for help?
    Mr. Hamre. Sir, no, they haven't. Everything we hear, and 
again I am taking my knowledge from talking in detail with John 
Koskinen, and John sits in with our monthly sessions, that we 
think they are going to be OK. There could be some problems 
with regional airports, more at the local level. We don't know 
that yet. I know that that is very much what they are turning 
their focus to.
    Again, we are saying that we have assets. We will support. 
We will provide the supporting activity for the rest of the 
Government. We are first going to have a process to make sure 
that we can afford to do that from our primary war fighting 
mission.
    Mr. Horn. Well after this hearing is over, I am going to 
phone up and see why they aren't calling you, because they 
should.
    Mr. Hamre. Well, sir, I think our preference would be is 
that we do this together through the process John Koskinen has 
set up for the Federal Government, rather than them just call 
us directly. Of course they can call and we would be glad to 
respond. We would like to have it in a coordinated manner 
through John. John is doing a terrific job. We think that 
mechanism could work and could work fairly well.
    OK, I think that here is where we are. We will be ready on 
January 1st. As I said, there are only six systems, and they 
are not crucial for going to war because the systems are not 
going to be going to war. Our war fighters are responsible for 
testing. So if there is a problem with the guys that are going 
into combat, they have a responsibility for telling us we have 
a problem. There are contingency plans in place for every one 
of these systems.
    Infidelity. This was one of those issues we worked earlier 
in the year. I know the fidelity was less than it should have 
been earlier. I think it has improved. I will have to rely on 
some continuing input from the IG and GAO to help us identify 
that. We are very open to doing it. The nuclear command and 
control system is fixed, or is going to be fixed. It is going 
to be very scrupulously and rigorously tested. We are prepared 
to support domestic activity and overseas activity, if 
necessary. We are going to have to do that in a very 
disciplined way. We have got lots of assets, but we don't have 
anything close enough to cover it if it is a very, very 
widespread problem.
    Now, sir, with your permission I would like to ask Colonel 
Smith to give you a summary of the testing that we did, one of 
those little boxes. This was the little box that we did out at 
NORAD. It was really the first, lead sophisticated testing. If 
I could indulge the committee to take this briefing right now.
    [The prepared statement of Mr. Hamre follows:]

    [GRAPHIC] [TIFF OMITTED] T0621.041
    
    [GRAPHIC] [TIFF OMITTED] T0621.042
    
    [GRAPHIC] [TIFF OMITTED] T0621.043
    
    [GRAPHIC] [TIFF OMITTED] T0621.044
    
    [GRAPHIC] [TIFF OMITTED] T0621.045
    
    [GRAPHIC] [TIFF OMITTED] T0621.046
    
    [GRAPHIC] [TIFF OMITTED] T0621.047
    
    [GRAPHIC] [TIFF OMITTED] T0621.048
    
    [GRAPHIC] [TIFF OMITTED] T0621.049
    
    [GRAPHIC] [TIFF OMITTED] T0621.050
    
    [GRAPHIC] [TIFF OMITTED] T0621.051
    
    [GRAPHIC] [TIFF OMITTED] T0621.052
    
    [GRAPHIC] [TIFF OMITTED] T0621.053
    
    [GRAPHIC] [TIFF OMITTED] T0621.054
    
    [GRAPHIC] [TIFF OMITTED] T0621.055
    
    [GRAPHIC] [TIFF OMITTED] T0621.056
    
    [GRAPHIC] [TIFF OMITTED] T0621.057
    
    [GRAPHIC] [TIFF OMITTED] T0621.058
    
    [GRAPHIC] [TIFF OMITTED] T0621.059
    
    [GRAPHIC] [TIFF OMITTED] T0621.060
    
    [GRAPHIC] [TIFF OMITTED] T0621.061
    
    [GRAPHIC] [TIFF OMITTED] T0621.062
    
    [GRAPHIC] [TIFF OMITTED] T0621.063
    
    [GRAPHIC] [TIFF OMITTED] T0621.064
    
    [GRAPHIC] [TIFF OMITTED] T0621.065
    
    [GRAPHIC] [TIFF OMITTED] T0621.066
    
    [GRAPHIC] [TIFF OMITTED] T0621.067
    
    [GRAPHIC] [TIFF OMITTED] T0621.068
    
    [GRAPHIC] [TIFF OMITTED] T0621.069
    
    [GRAPHIC] [TIFF OMITTED] T0621.070
    
    Mr. Horn. Please, come to the table and take whichever one 
of these sad microphones you can put your fingers on.
    Colonel Smith. Will that be sufficient?
    Mr. Horn. That is fine. Just speak into the mic.
    Colonel Smith. Mr. Chairman, Madam, for the next 5 minutes 
I would like to give you some understanding of what your North 
American Aerospace Defense Command has been doing for the last 
4 or 5 months in the skirmish in the operational evaluation of 
the Y2K problem.
    I am going to show you a number of fairly technical charts. 
Your staff will have those charts. I trust you understand my 
intention is not to confound the committee and not to impress, 
but rather to express the level of detail with which we have 
examined the problem, and the amount of rigor that has been 
applied to testing them in the operational environment.
    Next chart, please.
    [Chart shown.]
    Colonel Smith. As you heard described, there are four parts 
to the DOD Y2K plan. Each of the 11 combined and unified 
Commanders-in-Chief have been tapped with the responsibility of 
taking the work that has been done by the system program 
offices doing individual technical testing and the services and 
agencies and functional deputies doing various portions of 
their string and functional area tests and apply that system's 
approach to the actual mission environment.
    In other words, take a sensor to shooter string of 
operational systems; apply an exercise scenario over the top of 
that; operate the systems in the Y2K environment and ensure 
that we can conduct the mission.
    Next chart, please.
    [Chart shown.]
    Colonel Smith. These are the two critical missions that 
North American Aerospace Defense Command has and General Myers 
is responsible to you and to the American people for aerospace 
warning and aerospace control. Integrated tactical warning and 
attack assessment is the warning of ballistic missile attacks, 
nuclear attacks, atmospheric and space attacks. The control 
part is the air sovereignty and air defense part. The portion 
of this chart shown in red is the portion that we addressed in 
our December operational evaluation. The remainder was 
addressed in the last 2 weeks during our February operational 
evaluation, otherwise known as Amalgam Virgo 99-2.
    Next chart, please.
    [Chart shown.]
    Colonel Smith. This is obviously a chart to choke a horse. 
Again, the purpose of this chart is not to address in detail 
each of the systems involved, but to express the level of 
detail we went to to ensure that we understood the complete 
missile warning mission architecture: every box, every 
connecting communication system that is involved in that 
architecture.
    From that architecture we carved out the minimum number of 
systems, from sensor to shooter, if you will, required to 
execute each of the two missions I showed you on the previous 
chart.
    Next, please.
    [Chart shown.]
    Colonel Smith. What that looks like in an operational sense 
is that the global missile warning system, for example, to 
include the radar sensor systems shown in yellow; the infrared 
satellite detection systems and their sensor processor systems, 
shown in blue; the correlation centers where all of the radar 
and infrared information is brought together and correlated 
shown in pink, principally Cheyenne Mountain; and in green, the 
forward users or shooters, in this case the principals being 
the National Military Command Center, the National Defense 
Headquarters in Ottawa and CINCSTRAT's headquarters in Omaha.
    Next chart, please.
    [Chart shown.]
    Colonel Smith. This is what I call a blue box chart, if you 
will. It is the thin line that we carve out of that, that is, 
the minimum number of systems. This is what we looked at in 
December. We looked at a representative sample of each of those 
three kinds of radars that I showed you and the infrared 
processing system. We processed it through the two correlation 
centers. In this case, principally the alternate missile 
warning center at Offutt and forward to STRATCOM headquarters 
to the National Military Command Center. In participation with 
the Nuclear Command Control and Communications process, we also 
forwarded that information to site R to make sure one, that we 
had a good proof of process for operational evaluations; and 
two, that we could take a look at some of our systems. Each of 
the blue blocks that you see here represents a system that has 
a clock in it, whether it be a distribution or a process 
system, or a SECURECOM interface or some kind of a display.
    Next chart, please.
    [Chart shown.]
    Colonel Smith. What we found from that December operational 
evaluation were no failures. Not only did we have good 
performance in the real-world environment, which suggested to 
us that, whatever happens, our real-world system is going to 
operate properly for us. Our final report was posted on January 
5th, 1999, and that can be made available.
    Next chart.
    [Chart shown.]
    Colonel Smith. Having established a good proof of process 
for operational evaluations and an understanding of our 
systems, we went forward this last 2 weeks in our second 
operational evaluation looking at all of that space and missile 
warning architecture, as well as the air warning and control 
architecture. We ran runs prior to clock rollovers, across the 
clock rollover, and after the clock rollover for each of the 
four critical dates, the so-called 9/9/99 date, dated September 
9th, the December 31st rollover, and the two leap years, 
February 28th and 29th.
    We looked at a representative sample again at the IR 
missile sites and space sites. In the air side, we looked at 
like and simulated tracks to make sure that we had good 
redundant data, and we looked again at the same environment 
there looking at critical sites.
    Next chart, please.
    [Chart shown.]
    Colonel Smith. This is a missile warning thin line. In 
addition to what we did in December, we picked up that last 
ballistic missile early warning radar system that we had not 
looked at. In addition, we looked at several elements of the 
survivable endurable nuclear command and control system to 
include the mobile ground stations and the mobile consolidated 
command centers. We also brought forward the national defense 
headquarters in the Canadian NORAD Region, along with the 
Fylingdales radar station in the United Kingdom.
    Next chart, please.
    [Chart shown.]
    Colonel Smith. The space warnings thin line is very much 
similar to that with the exception of the radar that we added 
at Eglin Air Force Base.
    Next chart, please.
    [Chart shown.]
    Colonel Smith. Looking at that air warning system, the 
second week, we took of the over 100 radars that ring the North 
American continent for aerospace early warning, we took five 
representative samples of the five key types of radars that 
constitute that entire system.
    Next chart, please.
    [Chart shown.]
    Colonel Smith. What those look like when you apply them to 
that thin line environment, is the radar processors that we 
looked at through the radar display systems and processing 
systems at each of the regions, CONUS, Canada, and Alaska, 
through Cheyenne Mountain again, a slightly different display 
system, but essentially the same processing through to those 
same forward users or shooters at the National Command Center, 
STRATCOM, and the NDHQ in Canada.
    Next chart, please.
    [Chart shown.]
    Colonel Smith. The summary, then, is that the first 
exercise of Vigilant Virgo 99-1 went without a hitch. We had 
high confidence based on nominal performance after that 
evaluation. We just completed our second evaluation of the 
entire mission string that we require. Our quick look is that 
there were no hard failures for our NORAD system. And, I will 
tell you that we were running some non-mission-critical systems 
in the background to take advantage of the architecture that we 
put together, and in one of those systems, we had a situation 
similar to what Admiral Willard described with a message 
handling piece, but the system program office that is 
responsible for that tells us that it will be 60 days or less 
before we have that one fixed. And in any case, it is not a 
mission-critical system. So, we were successful in finding some 
problems and in time to have them fixed.
    The last message that I would give you here is a continuity 
of operations bullet. My point there is that, having completed 
our operational evaluations, we at NORAD do not consider 
ourselves finished. We are responsible now to put together a 
real-world operations plan so that we can deal with the actual 
dates as they occur, so that we work with our local community 
to make sure that we have prioritization and sharing of 
resources to deal with unexpected consequences, that we have 
the right people in the right place to deal with the systems, 
and that we are prepared to distribute messages throughout the 
system to validate the performance immediately after each 
rollover. So that we don't have to wait until a real-world 
event occurs to find out whether it is actually working or not.
    So, we are going to apply very rigorous process to that 
operational planning, so that we are prepared to deal not only 
with what we have discovered in our test, but what happens in 
the real world. The bottom line is the Commander-in-Chief, 
NORAD General Myers, is going to be able to provide that 
warning and control, just as Dr. Hamre has described, on 
January 1st and every day thereafter.
    Subject to your questions, that concludes my statement.
    [The prepared statement of Mr. Smith follows:]

    [GRAPHIC] [TIFF OMITTED] T0621.071
    
    [GRAPHIC] [TIFF OMITTED] T0621.072
    
    [GRAPHIC] [TIFF OMITTED] T0621.073
    
    [GRAPHIC] [TIFF OMITTED] T0621.074
    
    [GRAPHIC] [TIFF OMITTED] T0621.075
    
    [GRAPHIC] [TIFF OMITTED] T0621.076
    
    [GRAPHIC] [TIFF OMITTED] T0621.077
    
    Mr. Horn. Well, let just sum it up. You have had extensive 
testing and interactions in a real-world environment for most 
of your systems in NORAD, and you only have very few left to 
go. And as I have looked at the basic Y2K mission-critical 
system, we are talking about the Army, at 10 out of 24, OK; 
USN, 10 out of 55; USAF, 10 out of 14, and then the nuclear 
side, of the 275, most will be completed by the end of March, 
except for 12 different systems, as I heard the testimony. So, 
how much is really left here after the President's date of 
March 31st?
    Colonel Smith. As far as our mission-critical systems----
    Mr. Horn. Yes.
    Colonel Smith [continuing]. For NORAD? All of the mission-
critical systems for NORAD, those that are supplied to us by 
the Army, Navy, Air Force, are compliant. We have some non-
mission-critical systems of which only one will extend, as far 
as I understand it, past the 31 March deadline.
    Mr. Horn. OK, they are compliant and that is after the 
testing in a regular real-world interaction going on around it?
    Colonel Smith. That is correct, sir.
    Mr. Hamre. Mr. Chairman, if I might just wrap up just to 
say that I think Admiral Willard said something very important 
to me while we were listening to R.F., and that was, we are 
glad that we saw a couple of failures, because if they just 
came back and said everything worked fine, we would think our 
testing wasn't good. So we look on failures not as a sign that 
we have got problems, but, frankly, that the test environment 
is working. And I think that it is very important.
    Sir, that really wraps up what we wanted to say to you. Of 
course, I got all the smart guys here to answer the real hard 
questions.
    Mr. Horn. Since you are going to succeeded by Assistant 
Secretary Money, is part of the problem why the Pentagon was 
delayed, the fact that General Paige retired as Assistant 
Secretary, then his Deputy Assistant Secretary retired, then 
two Directors under them retired, so, I taketh you have had a 
tough time filling that area.
    Mr. Hamre. Well, sir, I think that in fairness, it is half 
right and half wrong. What is right about it, is that you are 
absolutely right. Art Money has made all the difference in the 
world to get in there. And we went for a period of time of 8 
months without having somebody in the job. So, that was a huge 
change. I remember attending my first Y2K session back about 4 
years ago when I was a Comptroller, and it was very hard to get 
people to feel that this was something other than just a 
computer geek problem. You know, this was largely viewed as 
just a technical problem. And it really took until last summer, 
when we said, and this isn't about computers; this is about 
fighting and winning wars; this is about people; this is about 
leadership. And it was bringing them onboard, and fortunately, 
what Art was able to do was to bring a discipline process that 
he and Marv and Bill had worked out, so that we really could 
take advantage of that energy that the Secretary put into the 
system.
    It is working. I think we are going to be OK. I don't want 
to give you the impression that we won't have some surprises, 
but we are going to be able to take care of this country.
    Mr. Horn. Let me ask you one last question for me, and I 
will yield to my colleagues. The microchip situation, not just 
the critical mission bit. How many? You have probably got a 
billion or so----
    Mr. Hamre. Yes, lots of them.
    Mr. Horn [continuing]. Somewhere throughout the Department 
of Defense. What are we doing on that?
    Mr. Hamre. Sir, some others here know. I think the answer 
is we have done some testing already. We found that the problem 
isn't nearly bigger than we thought it was, and who----
    Admiral Willard. I can cover it in general. Sir, the 
process of checking microprocessors is part of our remediation 
series of events. It is actually handled in the management 
plan. And these systems that you are seeing tested here are not 
strictly date functions that are associated with software, but, 
indeed, date functions associated with microprocessors as well. 
And you are right, there are a great many of them in our 
systems. But, once again, as we took the systems through 
testing and through remediation, in addition to our software 
requirements, microprocessors were part of that entire checks-
and-balances issue.
    Mr. Horn. I yield 5 minutes to Mrs. Morella, the co-
chairman of the task force.
    Mrs. Morella. Thank you very much. I thank you for your 
testimony and the charts, and I think the testimony has been 
somewhat comforting.
    I have a number of concerns. One was the personality; you 
have tried to address that. Computer chips was another one. I 
am concerned about the contractors that you deal with, knowing 
that you deal with so many of them. How are you going to handle 
making sure that not only they say they are compliant, but that 
they have been adequately tested? I don't know whether you have 
a special department or group that are looking at that, or 
whether each of the compartments is looking at its own, in 
terms of its contractors, and have you found them reticent to 
respond to your inquiry in terms of validating or assuring that 
they are compliant?
    Mr. Hamre. Mrs. Morella, of course, we have so many 
contractors.
    Mrs. Morella. Yes.
    Mr. Hamre. I mean, several hundred thousands of contractors 
that we work with, and, of course, all the utilities all around 
the country, et cetera. So, it is not a process that we can run 
centrally. This is one where we have to give individual 
organizations responsibility to check with who they work with 
most and that sort of thing. And everybody has been given that 
job.
    And our answer is that, for example, if we have a 
contractor we are not sure if they are going to be able to 
provide spare parts, you know, in a Y2K environment, let's not 
go out and stockpile a bunch of spare parts. Let's find a 
contractor who is. You know, let's find somebody. Let's use the 
power of the marketplace here to get people to fix their 
systems.
    Now, we have found it difficult for companies to give us 
unequivocal answers about where they will be. And it is partly 
this fear of lawsuits, you know, that has frozen up so many 
people here with year 2000. This is a big problem. This is a 
problem that, frankly, rests--there is only one place in the 
world that you can settle it; that is here in Congress, and 
that is to reconcile the relative priorities of the legal due 
process rights that belong with both aggrieved parties and 
claimants and defenders versus the problem we are having 
getting unequivocal answers to questions.
    We are doing our best to work around that, but, frankly, 
the environment people that are in there are never going to 
give you 100 percent guarantees. I can understand that because 
of the environment we have. So, we work other ways of trying to 
get a handle on, are they going to be ready; aren't they? We 
ask to see, well, tell us about your testing plan. Tell us 
about how you are going through your internal procedures to 
confirm you will be compliant. You can get a pretty good sense 
pretty quick. I mean, if they get kind of a blank bovine and 
stare, you know that we are in trouble.
    Mrs. Morella. I hope so, because I still find that daunting 
and rather frightening. Are you also indicating that you feel 
some kind of liability legislation is appropriate? I mean, you 
know we have legislation that is saying that it is not a waiver 
of immunity; it does not offer the immunity, not a waiver of 
liability, but it looks at frivolous lawsuits, talks about 
alternative dispute resolution, and has a series of other 
components that might well reduce that chilling effect. Do you 
have a feeling about it?
    Mr. Hamre. Madam Chairwoman, I really have to defer to John 
Koskinen, to speak on behalf of the administration, I think, 
for that, rather than I don't--the Department of Defense 
wouldn't have views independent of what the administration 
would have, and I really need to have him answer that question.
    Mrs. Morella. I understand the situation, and I guess I was 
just kind of thinking personally.
    Mr. Hamre. And we would like to work together with you to 
get that, yes.
    Mrs. Morella. My other concern, and I would certainly 
invite, if time allows, our Inspector General and GAO 
representative to comment on--I am very concerned about other 
countries; you mentioned Russia; you mentioned trying to 
assuage their concerns and to help them, and I assume this is 
Kazahkstan and all of the other Republics, too, of the former 
Soviet Union. But, I also traveled in Asia and even to Tokyo, 
to Japan, and of course, Indonesia and Korea, and they are just 
so far behind in terms of remedying of being compliant with 
Y2K. I don't even think they understand all the ramifications 
of it.
    My concern is, of course, obviously, the interoperability, 
the fact that we have bases on so many of those places, too. 
Are we placing our own people in jeopardy about the world? 
Would you like to comment further on that?
    Mr. Hamre. I will try to be very brief. We are not worried 
about our war-fighting systems, because, frankly, they are kind 
of designed to operate independently, wherever they are. But we 
are worried about, you know, the living conditions and the 
support functions that go on that we have overseas. We are 
apprehensive about where things stand in Korea and Japan, not 
that they don't have very talented people to fix things; they 
do, enormously capable people. But, you know, they have had 
their hands full with some serious economic problems for the 
last year and a half and they probably haven't been spending as 
much attention to this as have we. So, we are nervous about it. 
We have asked our Commander-in-Chief for United States Forces 
in Korea to work with the Koreans, and I believe that we really 
do have a good dialog now established with the Koreans about 
it.
    We are particularly worried about things like electrical 
power, things of that nature, telecommunications. Probably our 
biggest concern, if we have it overseas, is with nuclear power 
reactors in the old Soviet Union. We don't know that there are 
very good safety backup arrangements for them. That makes us 
worried. You know, we are nervous about that. Again, it is not 
so much that it affects our ability to operate our military 
ability, but I think in a broader sense, I think Americans 
should worry about that.
    Why don't I see if our colleagues here have some followup 
notes.
    Mrs. Morella. Thank you.
    Mr. Brock. I think that is a very important area, Mrs. 
Morella. The potential for Y2K disruptions in other countries I 
believe is much greater than it is in the United States. I 
think that Deputy Secretary Hamre is correct when he states 
that it might not have an immediate impact on our forces, but 
it, obviously, has an impact on economic relationships, on 
trade relationships, on our ability to get goods and services 
into the United States, and on our ability to have effective 
harmonious relationships with other countries that might be 
having disruptions caused by large-scale failures. The problem 
is, it is unlike the Department of Defense where we are able to 
go in and identify the issues and come up before you and 
discuss them; we don't have that same level of visibility 
within the international arena.
    Mrs. Morella. Mr. Lieberman.
    Mr. Lieberman. Within the last few weeks, I have had people 
doing extensive work in Korea and in the Middle Eastern 
countries, where we have forces stationed, and we have also 
done some work in Europe. I would concur that most countries in 
the world, other than most of the European countries, 
Australia, New Zealand, and Canada, are well behind us. We need 
to do a lot more communicating with them than has been done in 
the past.
    We have found basically a lot of situations where they are 
waiting for U.S. officials to come talk to them and we have not 
done that yet. So, the auditors have been trying to close those 
communication gaps.
    Actually, I think the level of awareness is going up very 
steeply in all of those countries, for a variety of reasons. 
There was a World Bank report in January which shook up lots of 
countries when the World Bank reported that they were not doing 
well in Y2K. In the Republic of Korea's case, they didn't 
answer the mail from the World Bank, so they got a blank on the 
chart which showed whether or not you were doing anything, and 
they are very upset, because they do have an active program 
now.
    We are dependent on these foreign countries for everything 
from air traffic control in Kuwait and using Kuwaiti hospitals 
to Republic of Korea railroads, power, water, all kinds of 
things. So, this is a critical concern. And it is one of those 
areas that, as I mentioned in my statement, still has to be 
worked very intensively as the year goes on. You probably 
couldn't have done that much 6 months ago because the countries 
simply weren't ready to talk, but I think now they are.
    And all of those that are members of the Organization for 
Economic Cooperation and Development, which include Japan, 
Korea, and most of the European countries where we have bases, 
are pushing forward much more vigorously with this now than 
they were before the turn of the year.
    Mrs. Morella. Thank you. I know my time has expired.
    Mr. Horn. Thank you.
    Mrs. Morella. China is another country, too, that, you 
know, enormous proportions. Thank you.
    Mr. Horn. Thank you. I now yield 5 minutes requesting to 
Mr. Turner of Texas, the ranking member of the subcommittee.
    Mr. Hamre. If you will indulge me, sir, Mr. Money, who 
knows everything, anyway, I am going to ask him to sit in my 
place.
    Mr. Horn. Well, can you indulge me for 30 seconds?
    Mr. Hamre. Oh, yes, sir, of course; you are the chairman.
    Mr. Horn. And I will tell you this: You will know with your 
experience on the Hill, but occasionally, a Member will throw 
in something when they have got the big man in front of them. 
So, this is a big man question that has come over from the 
Pentagon. ``For as long as anybody can remember, we Pentagon 
employees have been walking from the parking lot to the 
building, no matter how far from the building we have had to 
walk. Reason: it is against regulations to use government 
vehicles for employment commuting purposes, which is what a 
shuttle would be. Now, we find out the Defense Supply Center in 
Columbus, Ohio, operates a parking lot shuttle in a parking lot 
much smaller than the Pentagon's. As justification, they site 
DOD Regulation 4500.36-R. If that regulation can justify 
shuttle service for DOD employees in Columbus, Ohio, then why 
can't it justify the same service right here at the Pentagon.''
    I merely bring this up because they might be working on the 
Y2K problem--[laughter]--and if you would not mind, Mr. 
Secretary----
    Mr. Hamre. I will look into it.
    Mr. Horn [continuing]. Making sure there is an answer on 
disparity of treatment with this Department.
    Mr. Hamre. I absolutely will look into it. It is in our 
interest to get the workers there earlier. So, I will find out 
what is going on.
    Mr. Horn. OK. Thank you very much. [Laughter.]
    Mr. Money, then, will replace you.
    And, Mr. Money, tell us how long it took to, one, to get 
your appointment up there, and, two, to get confirmed?
    Mr. Money. It is not even up there yet. [Laughter.]
    Mr. Horn. Because we have all been wondering, you know, 
where are you? And, I take it, it took rather lengthy or what?
    Mr. Money. No, sir. I am still the senior civilian 
official.
    Mr. Horn. I see. OK. So, you haven't been confirmed yet?
    Mr. Money. I was confirmed about 3-plus years ago as the 
Assistant Secretary of the Air Force for Research, Development, 
and Acquisition. Dr. Hamre asked me to come down about a year 
ago to take on this job. So, pending, if I am nominated and if 
I am confirmed, then I would be the Assistant Secretary, but 
today I am the senior civilian official of the Department of 
Defense.
    Mr. Horn. This is the Assistant Secretary C3 plus 
intelligence?
    Mr. Money. Yes, sir.
    Mr. Horn. Yes, we are glad to have you onboard.
    Mr. Money. My pleasure.
    Mr. Horn. And Mr. Turner now has the floor.
    Mr. Turner. Thank you, Mr. Chairman.
    Secretary Money, after listening to Dr. Hamre, I think we 
all are very much reassured that the Department of Defense has 
gotten this house in order, and obviously, you are due much of 
the credit for that. And I think we heard some very interesting 
proposals that you are planning to implement, one of which I 
found very interesting, and that is the idea that you are going 
to invite the Russian military to come look over the shoulders 
of those who man our nuclear weapon systems on January 1. I 
wondered if that had ever been done before. This seems like 
certainly a groundbreaking event?
    Mr. Money. Not in the nuclear area, to my knowledge, Mr. 
Turner. The State Department is actually working that. We came 
up with the idea several months ago, but it is being worked 
through the State Department. As it was alluded to earlier; 
there have been several groups going back and forth to Russia 
discussing this. Also, I believe there is some discussion about 
bringing in anti-nuclear power, so that in fact they can, in 
fact, see that, through our early warning systems, if anything 
else is going on, to assure them that if there are screens that 
go blank or all light up, whatever may be a problem out of Y2K, 
that there is an independent or yet another source of 
information to preclude any inadvertent reactions.
    I might, if I could, just add onto a previous question that 
the IG responded to. Mr. Curtis, back here, he has been 
overseas a lot. We have had several workshops with various 
countries. In particular, what comes to mind are several NATO 
allies. We have also gone into Australia, Canada, into Russia, 
more recently. So, we have had an outreach program from the 
DOD. But the overall outreach program, and in fact it was being 
handled under the coordination with the Y2K coordinator, John 
Koskinen, but of note, he has had a meeting, I want to say, 
maybe 6 weeks ago, 2 months ago, up at the United Nations, 
where there were over 100 countries present, where the problem 
was talked about, awareness was heightened, as a beginning to 
get other countries in the world more aware, if not, into 
remediation.
    So, there has been a fair amount of outreach, albeit, there 
always could be more. But the State Department is also looking 
into that. But, when it comes to Y2K, we look to John Koskinen 
as being the defining authority on all those activities.
    Mr. Turner. What kind of potential problems do we face with 
our NATO allies where we have joint operations, say Bosnia? 
What kind of potential problem do we have, and have we done 
anything to try to remedy that?
    Mr. Money. Absolutely. We have the Supreme Allied 
Commander, General Wes Clark. He is also CINC for European 
command. So, he has those two hats. He stands up in front of 
the Secretary and the Deputy on certifying that the United 
States Forces in Europe are ready, but, also, we have looked at 
him and tried to help in the NATO area.
    Frankly, I have some concerns in NATO. Some of the 
countries are going after the Y2K problem with a vengeance; 
others are less so. The U.K., Netherlands, France, are very 
much up on Y2K. Germany is maybe a little bit behind, and then 
some of the other countries are quite a ways behind. In 
particular, operations into Bosnia today rely on circuits that 
are not Y2K compliant. We are trying to get them to be Y2K 
compliant by the end of the year, but there are some worries 
about that. We also have backups, though, from a U.S. 
standpoint, that would help.
    So, I can't give you a blanket guarantee that all the 
communications and command and control of the NATO are up and 
compliant to date because they are not. But there is effort 
being made against those areas, albeit I think it is a little 
late and maybe too short, not enough being done.
    Mr. Turner. So, the reports that we have been given today 
really are directed our own systems, and really do not 
represent an assessment of what kind of problems we might have 
when we are doing a joint operation with NATO?
    Mr. Money. You are absolutely right. What we are talking 
about is what the DOD can do for operations when there is a 
coalition or an allied operation; these folks will also look at 
that. So, let me just give Admiral Willard here a chance, but, 
also, the people here from the Army, Navy, Air Force, and 
Marine Corps.
    Admiral Willard. I would say this: Very recently, the Y2K 
Task Force lead for the North Atlantic Treaty Organization 
[NATO] visited us in the Pentagon, in fact, visited with me for 
some time just to compare notes in terms of the approaches to 
our respective problems. He is from the United Kingdom and was 
assigned the responsibility to oversee their remediation 
process and evaluation process. And, as Mr. Money points out, 
they are not as far along as this Department is right now, but 
are enthusiastic, and they understand the process. If not in 
remediation of actual systems, then in building the necessary 
contingency plans to be able to work around them. Also, we have 
an ongoing dialog between our European command and NATO, and 
NATO has an infrastructure that is, in fact, in place to 
address the problem.
    Mr. Money. Admiral Johnson, you want to talk about the 
Navy, and in particular, Mr. Turner's question?
    Admiral Johnson. We started last year recognizing that we 
had to deploy ships year 2000 compliant at least 6 months ahead 
of time because of the length of our cycle. The first year 2000 
compliant battle group is the Constellation. We just finished 
the year 2000 joint systems integration test. Well, actually we 
haven't finished it. It is ongoing right now. But, New Year's 
Day 2000 was at 1600 local in the SOCAL operating areas on 
Saturday. I was there. The clocks rolled over and flight 
operations and the man overboard drill and everything else just 
continued, and they held a New Year's Eve party on board.
    The HMCS Regina, a Canadian ship, is deploying with that 
battle group. She has been involved in our testing and 
planning. Much of our C3 interoperability with our allies in 
the battle group environment are the results of FMS sales. Our 
FMS offices have contacted our allies, have informed them which 
ones of our sales are year 2000 compliant, which ones aren't, 
and what the fixes are. We are providing that information to 
our allies so that they can implement those changes. Regina is 
an example where we had the Canadians involved in our testing 
because they are going to deploy with us, and have gotten her 
capability tested in a year 2000 environment.
    Mr. Horn. General Ambrose.
    General Ambrose From the Air Force perspective, we are 
absolutely sure that our systems and our people will be ready 
to go on January 1, 2000. For foreign systems on the FMS side 
of things, we do a very good job of telling foreign countries 
to whom we export technology, what the status of that equipment 
is. And we know what the status of it is on the day that we 
transfer it to that foreign country. Now, quite honestly, if 
that country chooses to modify the equipment somehow or add a 
third country's technology to it, then we no longer know the 
status of it.
    For that reason, interoperability has become an important 
issue to us. And what we have done, is engaged our major 
commands, most of whom are components to a commander-in-chief 
somewhere in the world, and asked them to engage those 
commanders-in-chief, because the approach that you take to 
interoperability will be different in every theater because of 
the mix of countries you have there, because of the Y2K status 
of those countries, and there is certainly no uniformity in 
that anywhere across the globe.
    So, the right answer to this, I believe, is the approach we 
have taken, and that is, to have the war-fighters engage our 
coalition partners and allies and to work out those 
interoperability issues with them in theater for the situation 
they encounter.
    Mr. Horn. The answer to Mr. Turner's question?
    Ms. Browning. Good morning, Mr. Horn. First, let me tell 
you that, as of right now, about 95 percent of the Army war-
fighting systems are compliant, and the rest of our systems, as 
has been talked earlier, will be compliant toward the end of 
the year, between now and then.
    Concerning the issue of interoperability, right now we are 
in the process of going through all our war-fighting divisions. 
Our 10 divisions are 4 corps, and we are testing all of the 
systems. Probably the biggest issue we have, as has been 
indicated by my colleagues, is the foreign military. We are 
working with our Army Materiel Command. We are working with our 
partners both in Korea and Europe to make sure that as we do 
the test not only in our corps and divisions, but also with 
unified commanders, that the equipment we are using in the 
coalition warfare, that information is knowledgeable to these 
folks, they are looking at our implementation of that, and if 
they have a system they need to adapt, that we provide them all 
the information in doing that. So, we guarantee when the United 
States, when the Army weapons are given to those other 
countries, we give them the status of the Y2K compliancy of 
those weapon systems.
    Mr. Horn. Colonel McHale.
    Colonel McHale. Thank you, sir. The Marine Corps presently 
has fixed 84 percent of our mission-critical systems, and we 
are on track to finish the remainder prior to September of this 
year. The way the Marine Corps is configured, we are more 
expeditionary and less dependent upon overseas bases, so we 
don't have the problems that the Army and the Air Force would 
have. We just completed an operational evaluation that we 
conducted in Norway, which was not intended to be an 
interoperability exercise with the Norwegians, but they 
observed our exercises, and we traded information with them 
about the status of where they were, and came away quite 
confident that they were taking similar measures, although they 
are not on the same time line that we are. We demonstrated some 
interoperability with them in Y2K systems, although it was not 
part of a detailed technical plan, and again, came away with 
the idea that they were on track and performing very similar 
measures that we were.
    Mr. Horn. Good. I thank the gentleman for that question, 
and now yield the 5-minutes to the vice chairman of the 
Subcommittee on Government Management, Information, and 
Technology, Mrs. Biggert, of Illinois.
    Mrs. Biggert. Thank you, Mr. Chairman.
    Rear Admiral Willard, I had the opportunity 2 weeks ago to 
be at the Southern Command on my way on counternarcotics, 
visiting six countries in Central and South America, and was 
very impressed with what was happening down there. You 
mentioned that the Y2K problem was not jeopardizing their 
mission down there, that they were able to do both at once. I 
wondered if, since it seems to have been a lot of progress made 
down there and doing the end-to-end testing, if they are 
providing help to other areas, if they are sending anybody 
there to work on this problem or are all these commands doing 
it separately?
    Admiral Willard. In the case of Southern Command, the 
entire area of responsibility for that CINC, the commands, both 
interagency and within Southern Command proper, are all 
participating in this event. That said, there is ongoing dialog 
with some of our host nations to involve them in our year 2000 
assessments, and it has met with limited success. I would say 
that the true successes have been with our Uniformed Services 
in the operating area, as well as the Coast Guard and the other 
agencies down there that we are coordinating with. But, as is 
the case in Europe and as is the case in Asia, we find it 
challenging in the Southern Command to ascertain the exact 
status of infrastructures in and around our forces that are 
operating there, and we continue to strive to do that.
    Mrs. Biggert. I guess then my next question, is there a 
coordination between the different commands, like in Europe? Is 
there anybody that is in charge of overseeing all of those 
areas and making sure where there are successes in the testing 
of one area that that is forwarded to the other areas and to 
see if there is any difference?
    Admiral Willard. As you know, geographically, our world is 
divided among our uniformed commanders in chiefs, and they are, 
in fact, responsible for the conduct of the operations 
evaluations that you have seen illustrated this morning. They 
all have a reporting requirement not only insofar as their 
operations evaluations are concerned, but also as an ongoing 
assessment of the status of their forces within those regions 
of the world. So they are maintaining visibility on both the 
success of their operations evaluations as well as the forces 
that are in country by the various Services.
    And I would say too that the Uniformed Services 
individually maintain a great deal of visibility on their 
foreign base and facilities structures overseas and are 
continuously reporting their status as the year 2000 is 
concerned.
    Mrs. Biggert. I guess what I am asking is, at what point is 
there coordination between all the services? At what level is 
there someone who is coordinating all of the services?
    Admiral Willard. That is Mr. Money.
    Mrs. Biggert. Mr. Money would probably know.
    Admiral Willard. It is also the Joint Staff to some extent. 
So, though we focus primarily on the unified commands, the real 
focal point of effort, the real coordinating effort within the 
Pentagon is the conduct of the synchronization meetings that 
were described earlier where the uniformed services are 
represented. We in the Joint Staff represent our commanders-in-
chief, and all of the agencies are responsible for their 
functional areas, and their tasks are also represented there, 
and we discuss at that level all of our interactions.
    Mr. Money. Ma'am, if I could just add to that--this admiral 
here is the joint staff representative that also pulls all of 
that together. And he and my deputy, Marv Langston, meet weekly 
now on these harmonizing meetings, if you will, to sort those 
things out.
    I also want to just mention, not one CINC stands alone. 
There is supporting CINCs like transportation or space command, 
or whatever; that information is also being brought to those 
CINCs. By law, we have two tests for everything we are doing, 
and you can see there is 27, going to 31 tests; there is 30 
CINCs, so there is a lot of duplication of support functions 
that are also being tested. So, they are not totally standalone 
per se.
    Mrs. Biggert. Thank you.
    I guess then, Mr. Brock, you talked about the management 
function and how there needs to be improvement with that. Is 
this the area that you are talking about?
    Mr. Brock. Yes, ma'am, exactly. The example you saw earlier 
regarding the NORAD operational evaluation, was an example of a 
timely controlled test, well-defined test parameters, a well-
defined test script; a test script was followed, and things 
worked. When things didn't work, there was a way of going 
around it, and people were able to track it. That, we have been 
finding, is fairly typical of what we are seeing in the 
operational evaluations.
    However, on the functional evaluations, and when we review 
the plans of the functional evaluations--these are things like 
logistics, health, personnel, accounting, processes that the 
Department depends on on a day-to-day basis to support 
everything--and when we review their plans, we don't find that 
same level. I mean, we see a lack of test schedules, a lack of 
identification of specific goals and objectives, and it is more 
difficult to track what is going on there.
    I think the synchronization meetings that Mr. Money was 
talking about go a long ways toward resolving some of these 
differences, and we attend those synchronization meetings. But, 
to some degree, they are just reports of individual components 
and they are not funneled in such a way that all the 
information comes in in the same format or the same form that 
is easy for the top managers to make decisions about, and to 
determine what is going wrong and what is going right. So, this 
is the area that we are recommending that they need to improve, 
the type of management information coming in, so that there can 
be better oversight over these processes.
    Mrs. Biggert. Thank you.
    Mr. Horn. If I might just interject a minute, to clarify 
that answer--you make a very good point, Mr. Brock. I would 
like to ask Mr. Money and yourself if you have seen not only a 
report that comes in on a regular cycle to the responsible 
manager--I would be curious, Mr. Money, in answer to Mr. 
Brock's answer to Mrs. Biggert--to what degree do you have them 
on, say, weekly reports, every other week, or monthly reports? 
What is our timetable there to get a sense of urgency 
throughout the whole establishment?
    Mr. Money. Let's see, at the Department level, we meet 
monthly, reviewing what has transpired according to a plan from 
the previous month. Each of these functional people or PSA's, 
Principal Staff Authorities, over whatever these functional 
areas are, are meeting more often with whatever is going on in 
their particular area.
    I don't dispute or find any deviation from what Jack is 
talking about. Those plans aren't as rigorous and robust as 
we'd like them. We will continue to work with those folks. But 
I would say, this is now getting daily attention at some level. 
It rolls up, and we will have a roughly a 2-hour session with 
the Deputy Secretary once a month. Your staff, other 
committee's staff from Congress are invited and attend, as well 
as the IG, GAO, and John Koskinen has been very good at 
attending every one of those as well. So, it depends on what 
level you are on. There are various daily to monthly attention 
being given.
    I want to just foot-stomp, if I might, what Dr. Hamre said; 
some of the reporting, though, is obviously late, but also, it 
is burdensome. Let me give you an example. Every time you put 
out a report card for us, and when we were still at the ``F'' 
or the ``D-minus'' level, my office, frankly, it would be the 
Secretary of Defense, or, frankly, the President, would get 
letters from the general public. Those would then go to the 
Secretary of Defense and eventually get to my office. We have 
10 people, or thereabouts, continuously responding to the 
private citizen. I would rather have those 10 people off 
working on Y2K compliance versus answering mail, where our 
policy is we will answer every piece of mail. So, that is part 
of the additional duties, if you will, that maybe aren't quite 
as productive as we would like, but we will do that.
    Mr. Horn. Well, if you are successful in getting all the 
mail answered, we would like you to come over and spend a few 
weeks on Capital Hill. They keep telling us why they can't get 
it answered.
    I now yield to the gentlewoman from New York, Mrs. Maloney.
    Mrs. Maloney. Thank you.
    I would like to ask the IG, your office has completed 50 
reports on the Y2K efforts in DOD. You have already completed 
50 reports, and I am told that you have an additional 50 
reports in progress. Is that true?
    Mr. Lieberman. Yes, ma'am.
    Mrs. Maloney. Well, then it is obviously, I would say, the 
highest priority of your office. I would like to know, has the 
Department of Defense responded adequately to your concerns and 
the problems that you have raised?
    Mr. Lieberman. Yes. I think it is fair to say that we 
probably never have had as much responsiveness from the most 
senior levels of the Department to any given body of audit work 
than we have had to these Y2K audits.
    References have been made to some of the positive outcomes 
or silver linings in the cloud from Y2K--I think one of the 
lessons learned is that a lot of managers in the Department 
have learned how to use their internal auditors constructively, 
and to unleash us instead of trying to keep us out of areas. I 
would say, with very few exceptions, that there are mechanisms 
to work those exceptions, management has normally taken 
corrective action even before we formally report.
    Mrs. Maloney. As recently as last September, you found that 
9 of the 16 weapon systems contracts that you reviewed, that 
they did not contain the required language for Y2K 2000 
compliance. And this seems like a widespread problem due to 
DOD's decentralization of contracts and procurements in weapons 
systems. Do DOD contracts now contain a standard Y2K compliance 
assurance clause?
    Mr. Lieberman. They are supposed to. We are still finding 
isolated instances where they don't, but I would say the 
problem basically is as close to being solved as it is going to 
be. We will still look for that in every single audit that we 
do, but I think the Department has come a long way. Initially, 
auditors were finding this non-compliance quite frequently, but 
now it has become an isolated exception.
    Mrs. Maloney. The DOD report to OMB, no longer contains 
information on the status of the intelligence community. And 
again, I would like to ask the IG, the current status of the 
intelligence computer system and whether there is a concern 
within the intelligence community. And I would also like to add 
that possibly we shouldn't be asking detailed questions about 
the intelligence community in public hearings. If you would be 
more comfortable, I have a series of questions in writing I 
could give to you on the intelligence community.
    Mr. Lieberman. That would be fine. And Mr. Money runs the 
Office of the Assistant Secretary of Defense (Command, Control, 
Communications and Intelligence), so he can weigh-in also.
    Mr. Horn. And if you can't respond here, we will have Mrs. 
Maloney's questions go over to you, and at this point in the 
record, without objection, the answers and questions will be 
put in.
    Mr. Money. Yes, sir, but I can give you an answer here. All 
those numbers included every critical system that DOD needs to 
conduct any operations, including intelligence systems. The 
data base issue was dropped out, meaning it is handled at a 
classified data base because we were concerned about how much 
information was present in that data base. So, it is still 
being reported as handled in a classified manner.
    Mrs. Maloney. But I tell you, the report that you put up 
there, it was quite comprehensive, and it had many tests taking 
place at the same time.
    Mr. Money. Yes, ma'am. And those included the intelligence 
system that whatever that test needed.
    Mrs. Maloney. Right. OK, I will still put my questions in 
though.
    Mr. Money. And we will be glad to answer.
    Mrs. Maloney. On the weapons systems, again, I would like 
to go back to the IG. How safe are we that we won't have some 
weapon that goes off? And we have got some serious weapons now. 
I understand that most of our nuclear weapons have a manual 
process that is required to launch them. They have to be 
manually activated, but that we have other serious weapons that 
aren't manually operated, that are computer operated. And how 
safe are we? What is the status of these weapons systems? Is it 
correct to say that they will fail safe, that they will not 
accidently misfire? Have you been reviewing all of these and 
making sure there won't be a problem?
    Mr. Lieberman. We have only looked at a small sampling of 
weapon systems, I would say probably about 20. In none of those 
cases were there any dangers of that type. Statistically, the 
Department is reporting that about 90 percent of the weapon 
systems are compliant at this point. There are 40 some that 
still need to be worked through as the year progresses. But I 
would have to defer to my colleagues here to the left to talk 
to those systems that the IG hasn't looked at.
    Mr. Money. Let me answer one question and then pass it 
down, because this is not only a joint staff answer, but each 
service.
    But just go back a few weeks. We had missiles about to be 
in the air, and we had positive recall in a command-and-control 
sense. They may be an automated sense, but initially they are 
started, and there is a person in the loop. Some of that 
requires Presidential authority and release; others require 
CINC. So, it is not just that things are all totally automatic; 
there is something that starts it, and there is a human in that 
loop. But each of these people can answer that as well.
    Admiral Willard. With regard to weapons, I would just 
remind everyone that it is a special functional area. It 
receives very particular oversight by Mr. Money. As well, we 
have a system where each of our mission-critical systems and 
the weapons that fall into that category have been or are being 
remediated and checked Y2K compliant. Overarching that is the 
systems integration testing by the Services and they are 
testing all of their weapons systems, and above that, are the 
CINC operational evaluations that are testing from sensor to 
shooter. So, these mission-critical systems are receiving not 
only the attention that they need to make them compliant in the 
first place, but are undergoing rigorous integration and 
warfighting testing, as well, in several ways. I would defer to 
the Services to speak to their individual weapons systems, but 
you can be assured that the weapons systems are getting all the 
attention they deserve.
    Admiral Johnson. I want to emphasize that we have tried not 
to put any new processes in place to try and resolve this 
problem. We have used existing processes that have been proven 
over the years--our weapons systems safety processes, our 
safety of flight, our submarine safety programs, and the like. 
We know how to do systems integration and systems engineering. 
We have added Y2K aspects onto those, but our weapons systems 
are safe.
    General Ambrose. And I will add to what Admiral Johnson 
said that safety is an important part of our business, day in 
and day out. You can't use something to defend the Nation if 
you are destroying it yourself. So, we are very, very careful. 
Y2K is just one more thing we are very careful about.
    Now, when it comes to testing, we test our systems when we 
are in the process of certifying them. But when we go into 
these operational evaluations, we will only test Y2K compliant 
systems. So, we won't be testing systems that we are not yet 
sure are absolutely safe. In addition, I am not personally 
aware of very many weapons that have date-sensitive functions 
in them. That doesn't mean there aren't any, but I am just not 
aware of very many.
    Finally, in our testing to date, the Air Force has not 
encountered a catastrophic failure of any sort involving any 
weapons. So, our weapons are all safe.
    Ms. Browning. The Army is in very good shape on its weapons 
systems. About 95 percent are already Y2K compliant. You need 
to know, too, that the Army has no nuclear weapons. That is 
just a fact. The Army started testing of its weapons systems 
and its divisional units back in the fall. Let me just give you 
a brief snapshot of some of those tests and what we found.
    We did a lot of tests, as you know, at White Sands Missile 
Range. We did live fire tests. We tested our helicopters, our 
infrastructure, our command-and-control pieces. We found very 
few Y2K errors. The one or two we did find, they were easily 
fixable and we moved on.
    We have also tested our first deployable forces of the 18 
Airborne Corps at Fort Bragg. We did a number of communications 
tests back in the fall. They are part of our testing of our 
divisions and our corps units. Again, we found very few, if 
any, Y2K problems. We tested the 3rd Corps Field Artillery at 
Fort Sill, OK--that is an ongoing test--and the 10th Mountain 
Division in Fort Drum, NY, which will be deployed to Bosnia 
shortly. They have requested a full Y2K test.
    I would also echo what General Ambrose has said. Many of 
our weapons systems do not process dates, so you can rest more 
comfortably with that. But the ones that do, we have tested 
them and we are very confident that they will work.
    Colonel McHale. The Marine Corps is a shopper, not a 
developer, of weapons systems; 49 percent of our weapons 
systems are developed by the other services. The Army is the 
primary developer of our ground combat systems, and the Navy is 
the developer of our aviation systems. And we are tracking with 
them very closely on the status of their systems, and we take 
their compliant reports and ensure that the equipment is in 
fact certified, that we are using them and that we have 
incorporated them into our operational evaluations.
    We have conducted two operational evaluations to date, one 
in December, and one just last month in Norway, that I 
mentioned earlier, and have found no failures in any of the 
systems that we are operating.
    Mrs. Maloney. Thank you.
    Mr. Horn. Thank you. And I now yield 5 minutes to Mr. Ose, 
the gentleman from California.
    Mr. Ose. Thank you, Mr. Chairman. I want to also share with 
you that I was with Mrs. Biggert when we visited South Comm, 
and thereafter on Chairman Mica's reprise of the Bataan death 
march for the rest of the trip. I am still tired.
    I had a couple of questions, and I want to ask them in the 
context of, are there things that Congress needs to provide to 
make this happen, so that, come December 31, we have got it 
solved, this Y2K problem solved? If I understood the testimony 
today, the battle groups that we have out on deployment 
operating independently of any host-nation by virtue of being 
on international waters, they are OK. Am I correct on that? Go 
ahead.
    Admiral Johnson. We never operate independently. We are 
always in a combined environment of Naval forces or a joint 
environment, because we are always communicating with our Air 
Force, Marine Corps, Army counterparts, as we do our operations 
and supply maritime support from the sea. To that respect, we 
do rely upon the shore infrastructure; we do rely upon the 
space infrastructure. In the Constellation battle group test, 
we actually carved out a separate communications node so that 
we could use our Reachback Comms in the year 2000 testing 
environment this last weekend and ongoing today.
    So, to the extent that our forces are off the coast, and 
they are using their own capabilities for surface surveillance, 
undersea surveillance, air surveillance, and mission 
performance, yes, they are independent. Like every force in a 
coalition or joint environment, we are dependent upon the shore 
infrastructure and the other capabilities that might come to 
bear from either host nations or our joint commanders. And we 
are testing those in our operational evaluations.
    Mr. Ose. Does our dependence on those joint operations 
impact us to the degree that we are not capable? I thought I 
heard the testimony today that said we are OK irrespective of 
those joint interactions.
    Admiral Willard. There are a couple of things to consider. 
The battle groups themselves are being tested as an entity in 
the----
    Mr. Ose. That is the question that I am trying to get to.
    Admiral Willard. The answer is, yes, very rigorously. In 
fact, there is a sequence of five battle groups that will be 
tested, and the testing is very rigorous and extends throughout 
the battle group to ensure its Y2K compliance as an entity. In 
addition, the component Services are all captured in both their 
individual integration testing and unified command operations 
evaluations. So, those important interfaces between Services 
and between headquarters in the individual components' Services 
are all part of this examination.
    Mr. Money. The comments you have may be related to--I don't 
know if I made it or Dr. Hamre--when we are in garrison, if you 
will, in foreign countries, we are dependent on local power, 
and so forth. When we go to the field, we are self-sufficient.
    Mr. Ose. It was Dr. Hamre----
    Mr. Money. Yes.
    Mr. Ose [continuing]. But I am most concerned about the 
deployed battle groups, not the ones that are in drydock, and 
not the ones spinning up for the next mission.
    Admiral Willard. Sir, and again, I should defer to Admiral 
Johnson, but the entire Navy approach currently is to ensure 
that the integral battle group, to include the amphibious ready 
group component, is Y2K compliant as a whole, and they are 
actually being sequenced through their testing in accordance 
with their deployment dates, to ensure that we don't push a 
battle group across the millennium that has not been fully 
integration tested and captured in our operations evaluation 
process that is not Y2K compliant.
    Admiral Johnson. Today, the Peleliu and the Constellation 
battle group are operating off the coast of southern 
California, and all the clocks on those ships read, now it is 
January 2, 2000.
    Mr. Ose. To reference the test they are doing.
    Admiral Johnson [continuing]. And they are flying sorties. 
They are conducting practice bombing runs. They are doing AAW. 
They are doing man overboard drills, everything that they would 
normally do as part of their battle group qualifications, 
because PAC Fleet is a force provider to the joint commanders, 
responsible that those forces, when provided, will be fully 
certified to do their war-fighting mission in a year 2000 
environment.
    Mr. Ose. We have battle groups that are nuclear; we have 
battle groups that are non-nuclear. Are the battle groups that 
are nuclear, have the core reactors been tested?
    Admiral Johnson. The Naval reactors, I won't speak for 
Admiral Bowman, except to say that the nuclear propulsion 
plants are year 2000 compliant.
    Mr. Ose. Right. Mr. Chairman, I am not going to get to all 
of my questions, but I do appreciate your patience. That gets 
me to my second question.
    On these operational evaluations for calendar year 1999, 
you have the various command locations, and this is somewhat 
frightening and I am actually understanding what the acronyms 
mean. Some of them have primary; some of them have backup. The 
one that does not have a backup is the transportation command 
down at the bottom. Does that affect our logistics ability and 
what are we doing about that?
    Admiral Willard. In fact, Transportation Command--this may 
be a slight error. Every unified command operations evaluation 
must be backed up. So I would ask you to allow us to correct 
that slide and provide you the dates of their backup period. In 
fact, it was our requirement that, as they scheduled their 
operations evaluations, that they carve out an adequate period 
of time to handle further remediation and retesting, if 
required. So, it is mandatory that they have that available.
    Mr. Money. That is exactly right. That period from, 
roughly, July 1st, through the end of the September, in fact, 
is being viewed as, if we don't, if something goes haywire the 
first time or two, then there is where it will be tested yet 
again. So, I think the chart is wrong here.
    Mr. Ose. All right, thank you. I have two more questions. 
My time is going to expire, Mr. Chairman----
    Mr. Horn. No, it hasn't.
    Mr. Ose [continuing]. So I will get to one.
    Mr. Horn. It hasn't expired, and my rule is, if you can get 
the question out, they can take a half hour to answer it.
    Mr. Ose. Holy smokes. Hold on. Fasten your seatbelts. 
[Laughter.]
    Two questions. The first is having to do with the 
communication facilities for our forward-deployed units. I see 
we have on that same page a primary system, but no back up. And 
my second question is, with respect to Russia, I know that we 
talked about the command control systems that are in place 
there, but with respect to their perceived lack of civilian 
control in that country and the third-party organizations that 
might operate, they are dependent on computers. Does Y2K cause 
a problem in terms of, if you will, proliferation of nuclear 
weapons or development of nuclear weapons within countries that 
are now nuclear capable but who lack civilian control? That is 
two completely unrelated questions. I appreciate the chairman's 
dispensation on the communication.
    Admiral Willard. Sir, I can handle the communication 
question that you asked. The functional areas are being handled 
a little bit differently than the unified command operations 
evaluations. These functional end-to-end tasks, their detailed 
planning and the tests are being executed by the agencies 
responsible for our DOD-wide or, in some cases, national 
networks. They don't fall under the same categorization as the 
commander in chief OPEVALs (Operational Evaluations). And as 
such, they are being handled differently.
    You don't see backup periods against all of them because 
they are fairly extensive tests that occur within the timeframe 
that you see, but in some cases stop and go leverage off of 
CINC OPEVALs on occasion, even venture into the public domain.
    And we have collaborative efforts ongoing, for example, in 
the public phone network, to check public switches with them. 
It is being spearheaded by Mr. Money and his agencies, but, 
again, it is being handled a little bit differently, and you 
don't see necessarily a backup date in there, but in fact there 
is adequate time to remediate and retest.
    Mr. Ose. Do we end up with a dual or a backup system, a 
backup communication system for forward-deploying units?
    Admiral Willard. We have numerous redundancies in our 
communication systems and command and control systems, for that 
matter, for deployments.
    Mr. Ose. That are Y2K compliant?
    Admiral Willard. Absolutely.
    Mr. Ose. All right.
    Mr. Horn. You want to ask a question?
    Mr. Money. I was just going to add, by law, we have two 
tests for every one of these. So the charts are not showing you 
backup, but we will guarantee you there will be two tests for 
every one of these systems as it goes through, whether it is an 
OPEVAL or a functional end-to-end test, or, in some cases, it 
is duplicated.
    Mr. Ose. Mr. Chairman, in the interest of time, I will 
yield back, if I could submit in writing my other question for 
response.
    Mr. Horn. Without objection, the questions and answers will 
be put in at this part of the record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T0621.078
    
    [GRAPHIC] [TIFF OMITTED] T0621.079
    
    [GRAPHIC] [TIFF OMITTED] T0621.080
    
    [GRAPHIC] [TIFF OMITTED] T0621.081
    
    [GRAPHIC] [TIFF OMITTED] T0621.082
    
    [GRAPHIC] [TIFF OMITTED] T0621.083
    
    [GRAPHIC] [TIFF OMITTED] T0621.084
    
    [GRAPHIC] [TIFF OMITTED] T0621.085
    
    [GRAPHIC] [TIFF OMITTED] T0621.086
    
    [GRAPHIC] [TIFF OMITTED] T0621.087
    
    [GRAPHIC] [TIFF OMITTED] T0621.088
    
    [GRAPHIC] [TIFF OMITTED] T0621.089
    
    [GRAPHIC] [TIFF OMITTED] T0621.090
    
    [GRAPHIC] [TIFF OMITTED] T0621.091
    
    [GRAPHIC] [TIFF OMITTED] T0621.092
    
    [GRAPHIC] [TIFF OMITTED] T0621.093
    
    [GRAPHIC] [TIFF OMITTED] T0621.094
    
    [GRAPHIC] [TIFF OMITTED] T0621.095
    
    [GRAPHIC] [TIFF OMITTED] T0621.096
    
    [GRAPHIC] [TIFF OMITTED] T0621.097
    
    [GRAPHIC] [TIFF OMITTED] T0621.098
    
    [GRAPHIC] [TIFF OMITTED] T0621.099
    
    [GRAPHIC] [TIFF OMITTED] T0621.100
    
    [GRAPHIC] [TIFF OMITTED] T0621.101
    
    [GRAPHIC] [TIFF OMITTED] T0621.102
    
    [GRAPHIC] [TIFF OMITTED] T0621.103
    
    [GRAPHIC] [TIFF OMITTED] T0621.104
    
    [GRAPHIC] [TIFF OMITTED] T0621.105
    
    [GRAPHIC] [TIFF OMITTED] T0621.106
    
    Mr. Horn. Did any other service want to comment on this? If 
not, I now yield time to the gentleman from Minnesota who is 
the vice chairman of the Science Technology Subcommittee, Mr. 
Gutknecht?
    Mr. Gutknecht. Thank you, Mr. Chairman. I think at this 
point most of the important questions have been asked. But I do 
want to come back to a very important point, and in fact, if 
Mr. Ose would like, I would probably have time to yield to him, 
but I more or less want to make a statement here.
    I really do believe that our own Defense Department is 
doing an excellent job, and I think you are all to be commended 
for the seriousness that you take relative to this problem. I 
think the concern that you have heard echoed in different ways 
is, what can we do to affect both our allies and those who may 
not be particular friendly toward us? There is a growing body 
of countries out there, friendly and unfriendly alike, who are 
working around the clock to develop intercontinental ballistic 
missiles, or at least different venues to deliver weapons to 
other places around the world. And my real fear, and I think 
the fear of Members of Congress, and I think I speak on behalf 
of the American people, I think the biggest concern about this 
is we really don't have a contingency plan in place if 
something should go wrong.
    And part of the reason I have been a supporter through the 
years of development and deployment of a strategic defense 
program is, I think, highlighted by this circumstance. I mean, 
we are not just talking about Russia here; we are talking about 
Red China; we are talking about North Korea; we are talking 
about potentially countries in the Middle East. There is a 
growing list of potential problems out there whose technology 
is not necessarily what the United States is.
    And so, while I applaud what you folks are doing to solve 
these problems relative to the United States, I really do think 
that we need to do more on an international basis, either 
through the United Nations, through our own State Department, 
whatever we can do to make certain that we avoid the 
potentiality of a problem on December 31st or January 1st, 
whichever way you look at it, so that we don't have a problem 
with an inadvertent launch or some other mistake that may 
happen as a result of this particular computer glitch.
    And I don't know if you really want to respond to that or 
not, but I think it is something, Mr. Chairman and Madam 
Chairman, that we need to continue to pursue and put pressure 
on our government officials, as well as officials from around 
the country because this is a very serious potential problem.
    Mr. Money. Yes, sir, we do have a couple of comments, if we 
might, Admiral Willard, and then I will add something.
    Admiral Willard. I would just, sir, point out that only the 
United States and Russia have extremely robust strategic early 
warning systems that could be subject to the year 2000 failure. 
In fact, though proliferation is all of our concern. The only 
countries that you mentioned have somewhat limited early 
warning capacity. So, from the standpoint of the initiative 
that was mentioned earlier between the United States and 
Russia, it is focused on the partners that have the worldwide 
early warning capability to begin with that could ever be prone 
to failure.
    Mr. Ose. Would the gentleman yield?
    Mr. Money. And if I just might add, you asked, and I failed 
to answer your previous question about, or whoever brought up 
about what can you all do. I encourage you in any interactions 
you will have with your counterparts, for example, in the Duma 
and other bodies that you may have some interaction with, to 
encourage them to get on with the Y2K remediation, and in the 
particular case, for the Duma support of this stability center.
    We testified in front of Senator Bennett just the other 
day, I believe the Senate, and maybe you all would like to join 
in, is thinking about going over and having a conversation at 
the right time with folks in the Duma, for example. My request 
is if that in fact occurs. I would also recommend or ask you 
for your support to stopping in locations where we have troops 
stationed--Germany, South Korea, Southwest Asia--to encourage 
the local governments there to help make sure that our 
interdependency on whatever power water, telephones, and so 
forth, when we are in garrison and those countries, is in fact 
up to snuff, so that will alleviate some of demands on us. So, 
I would ask for that kind of consideration.
    Mr. Gutknecht. Mr. Chairman, I yield----
    Mr. Horn. I think that is a very good suggestion, and I can 
assure you a number of us will be doing that.
    Mr. Gutknecht. Mr. Chairman, I will yield the balance of my 
time to Mr. Ose.
    Mr. Ose. If I could followup on one thing--the early 
warnings systems joint effort with the Russians, is there any 
number of hotspots around this world or countries who might not 
have an early warning system, but might be receptive to the 
idea of having access to, at that point and time, where the 
technological failure is greatest, might welcome the chance to 
sit at this same table with direct communications to their 
CINCs, or what have you? I wonder, in particular, about you 
notwithstanding the recent comradery about India, Pakistan, for 
instance?
    Mr. Money. Yes, sir. In fact, that is being suggested. The 
State Department, in fact, is working that. I could conceive 
this not just being there only for the Y2K period, but being 
there in a permanent sense. So, as countries develop nuclear 
weapons, they have some idea what their neighbor may or may not 
be doing that would, I think, add to the stability of that.
    So, my recommendation, but it is a State Department action, 
is any country that has nuclear weapons ought to be invited to 
be there just to see what else is going on, so they have some 
assurance that they are not under attack or whatever suspicion 
they might have. So, I agree wholeheartedly with you, it ought 
to be broaden.
    Mr. Ose. Mr. Chairman, I would welcome the chance to sign a 
letter of your aghast futilage to that effect, and I yield back 
the rest of my time.
    Mr. Horn. I think it is a good suggestion. Mrs. Morella and 
I would be glad to join you in that with maybe all of our 
colleagues to get the message across. We do have relations, of 
course, with the European community. We have discussed this 
with them when Mr. Gilman led the delegation over there. But, 
we also have a concern about the lackadaisicalness of some of 
the countries on the domestic side where they just sort of say, 
well, you know, if it happens, it happens. I mean, they are 
still in a state of denial in a few industrial countries, and 
in the developing countries, they simply don't have the money 
or the technology know-how to get at the problem on even the 
domestic side. So, I think we all face that problem.
    Does the gentleman from Texas have any other questions he 
would like to ask?
    Mr. Turner. Mr. Chairman, maybe just a couple. And, I 
certainly want to commend our witnesses today for the testimony 
because I think it has been very reassuring to us. And, I think 
anyone who listens objectively to what has been said here 
should rest easier about the status of the Department of 
Defense and Y2K compliance.
    I wanted to ask Mr. Money, just could you give us an 
estimate as to how much it will cost the Department of Defense 
by the time we get through to comply with Y2K?
    Mr. Money. Yes, sir, and this is an estimate. There is not 
a lot of high precision behind this. But the current estimate, 
the latest to the OMB is we are somewhere around $3 billion.
    Mr. Turner. $3 billion?
    Mr. Money. $3 billion.
    Mr. Turner. It always amazes me, and of course, we have had 
many of these hearings with Federal agencies, but the price tag 
that we have had to incur and pay to be sure we are Y2K 
compliant has been enormous. It makes you realize that, no 
matter how sophisticated we have become as a society, we are 
really not too smart after all. [Laughter.]
    Mr. Money. Whoever is here 1,000 years from now, I hope 
they are not having the same problem.
    Mr. Turner. Right. One of the things that Mrs. Maloney 
asked you about earlier was what kind of--I believed she asked 
the Inspector General--what kind of contractual language do we 
have to protect the Department and the Government against Y2K 
problems? Have you, in all of your efforts to remediate, and 
after you will spend $3 billion to correct this problem, has 
any of the responsibility ever been shouldered by any of our 
outside contractors or suppliers of the various systems and 
computers that we utilize in the Department of Defense?
    Mr. Money. Oh, yes, sir. Let me start with the answer on 
the contracts. As Bob mentioned, roughly a year--maybe it has 
even been longer than that, language was to be put into every 
new contract--whatever that contract was to deliver to the DOD, 
would be Y2K compliant. We chose not to go back and notate all 
the previous contracts. We said we would start from that point 
on.
    Contractors, again, vary in degrees just like countries or 
maybe departments and governments, that some are taking it more 
seriously than others. But when systems are being delivered 
today, they are being tested. They are tested at--the 
contractors will test them. If they fall into a mission-
critical system, some do, but not many, what we call mission-
critical is what we will go to war with today or conduct any 
operation, whatever is called upon us. So that is pretty much 
equipment that is already in the inventory. So, all that is 
being done. Some contractors are taking us on with a vengeance, 
some with more diligence than others, but I would say, by and 
large, the private industry, and so forth, have come onboard 
with what is needed.
    I do worry about the 15th-tier supplier. We have talked 
with primes and second-tier and third-tier, but you get down to 
several tiers now. So I just picked the 15th-tier that supplies 
something. We fully expect, because we have gone through just-
in-time inventories, regardless of who you are, in the 
government or contractor sub-tier, and so forth, that some 
missing some deadline there, rolling effect could, in fact, 
happen, and to me that is probably the biggest danger that we 
will be facing, and that is totally unpredictable. We can't. So 
we just have to wait for that to occur, and then we will react 
to it.
    I can't overemphasize, though, that your Department of 
Defense can meet any operational problem that comes along, 
whether that is humanitarian operations in Africa or whatever 
may be called upon, or in Southwest Asia or Kosovo, wherever we 
may be in armed conflict. We have the wherewithal to conduct 
those operations, and if one of these systems does fail, we 
have contingency plans, and we are exercising those to back 
fill, so we can continue to operate in any of these calendar 
disruption periods.
    Mr. Turner. I guess I might ask--this is my last question. 
Is there any area of lingering concern that you have based on 
all your oversight of this process of remediation in the area, 
lingering concern, anything that still keeps you awake at night 
that you might want to share with the committee, so we will be 
thorough, to have examined every area of potential problem?
    Mr. Money. Well, you just said it. There is no way, time, 
money, that we can examine every possibility. We talk about 
mission-critical systems, and then the thread through as you 
tie one to another to another. We are not testing all the 
infinite combinations of those threads. We are testing the 
threads that the CINCs are most likely need to use. 
Consequently, there are things that we are not testing, and 
that does worry me, but we are doing the best we can with the 
resources. Frankly, the biggest resource we are lacking now is 
time to pull all of this off. I am confident; I, frankly, do 
sleep at night. It may not be as long as I like.
    Nevertheless, Dr. Hamre mentioned my name a couple of 
times. Frankly, these people down on the table here and the 
services are the ones, and many, many, many people that aren't 
here today--essentially, the Department of Defense has really 
taken this on. I admit there are some people maybe that don't 
have quite the awareness, but I believe everybody in the 
Department today at least knows what Y2K means and how that 
might impact them.
    The other part of this is--Bob Lieberman mentioned this--we 
have learned how to use the auditors. We view these folks as 
additional, independent, clearly independent, but additional 
people on the team to say what we are doing right or wrong 
because they view things from a different prospective. So, it 
has really been a total effort, including the GAO. That may not 
be often you hear that over here from a DOD person, but it is 
true. We have opened the door to everything we do, to whomever 
wants to come in, and consequently, because we do appreciate 
the perspective from people when they see things from another 
viewpoint. So, I hope my, Dr. Hamre, our mission today was--we 
are not arrogant; I don't mean it that way at all, but we are 
confident that we can ride through any calendar disruption and 
conduct any operation the Nation may call upon us.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Horn. I just want to clarify one point in the answer. 
We have heard so often that there is a danger of polluting our 
fixed computers that are Y2K compliant. Is there any danger 
that the non-critical mission plans and systems in the 
Department of Defense would interact with the critical mission 
systems which are compliant, and is that a problem?
    Admiral Willard. Sir, it is a good question. Frankly, the 
non-mission-critical systems are undergoing the same rigorous 
testing and remediation processes that our critical mission 
systems did, and as well, they are part of the architectures 
that we are testing in our operations evaluation process. So, 
first of all, they are being remediated. Second, they are being 
captured in these large-scale integration tests that we are 
doing.
    I think, to answer Mr. Turner's question in the glass half 
full sense, when you consider the relative successes that we 
are seeing through the small number of operations evaluations 
that we have completed thus far, I think our level of 
confidence is rising that this rigorous process that we apply 
to each individual system is a good one, and that together the 
systems will test satisfactorily. That should give us a good 
deal of confidence, even of the systems that are outside the 
bounds of these critical thin lines and architectures that the 
commanders in chief, for example, are testing.
    Mr. Horn. So, you have analyzed those systems that are just 
regular business systems, or whatever; they can't get into your 
other systems that are compliant with the year 2000?
    Admiral Johnson. If I could, sir--in the Constellation 
Battle Group systems integration tests that we are doing right 
now, we identified approximately 30 mission support systems 
that we thought were necessary for the functionality of that 
battle group, and included them in our testing. What we are 
finding is that we have good program managers. We told them 
what to do; they went out and did it, and they defined their 
interfaces; they tested those interfaces, and then as we put 
those systems together, in fact, they are performing the way we 
expect. We are finding that the kinds of problems we have found 
in the last week on CONNIE, a display on a COTS system, 
actually, that was certified to us by a supplier, read 1900 
instead of 2000. It still worked, just had a display error. 
Those are the kinds of things that we are finding.
    We are finding the systems operate. We may have a display 
functionality wrong or a day functionality wrong, but in terms 
of actually supporting the war-fighter, the systems work.
    Mr. Horn. Any of the other services want to comment on 
this, the separation of non-critical mission systems that are 
not compliant or have not even been looked at because you are 
focusing correctly on the mission-critical systems? The Air 
Force?
    General Ambrose. Well, although the Air Force tracks a 
little over 400 mission-critical systems, we are looking at 
about 3,400 total systems. And, although all of them aren't as 
far along as the mission-critical systems, all of them will be 
Y2K compliant by January 1, 2000. So, we are confident that 
those systems won't corrupt the mission-critical systems.
    Mr. Horn. The Army, Ms. Browning.
    Ms. Browning. The Army tracks approximately 700 mission-
essential systems, and we are tracking them quite closely. One 
of the things that we are doing both for our mission-critical 
and non-mission-critical, when we test them, we have to test 
all the interfaces, so if a mission-critical system interfaces 
with a non-mission-critical system, that is part of the test. 
So your concern about its corrupting one another, we have 
already accounted for that. And our main concern is the 
operational function that it is supporting, regardless of 
whether the system is mission-critical or not.
    The test we did at White Sands, the test we have done at 
Fort Bragg and at Fort Sill, include both mission-critical and 
non-mission-critical in the threads that we are testing. In 
fact, our non-mission-critical systems, if you will, are 
probably ahead of our mission-critical systems in compliancy 
because they are, frankly, less complex and have less 
interfaces. So, we are very confident of those. But right now, 
we see no potential for corruption since our testing rules 
require that all the interfaces be done during the test.
    Mr. Horn. Thank you. Colonel McHale, the Marines?
    Colonel McHale. As I mentioned earlier, the majority of our 
systems are operated and maintained by the other services, and 
we are confident that they are tracking the right thing and we 
are tracking them as they track those systems.
    Mr. Horn. So, you see no danger of pollution out of your 
other systems that are not critical?
    Colonel McHale. And in the definition of mission-critical 
that was taken into account when we defined the system as 
mission-critical, and as Ms. Browning said, the interfaces are 
being tested in all the operational evaluation scenarios.
    Mr. Horn. We thank you. And now I yield to the gentlewoman, 
the co-chairman of the Working Group Task Force, whatever we 
are called now, Mrs. Morella.
    Mrs. Morella. Well, it is ongoing. Thank you, Mr. Chairman.
    I want to thank you all for your testimony, and the fact 
that it reflects to us a commitment, and a commitment is what 
is really necessary, I think, in compliance with this 
incredible challenge.
    I go back to what Mr. Lieberman said in his testimony and 
orally, that the most daunting aspect of Y2K is testing. And, I 
think we have heard that in different ramifications 
throughout--the idea of, is it the right testing? Are we 
circumventing doing it the right way in order to save time and 
to save money, inadvertently sometimes, the whole magnitude of 
testing? I am just wondering if you have any comments on it?
    I would like to also mention an article that came out in 
DOD Computing. It refers to an IG report that is entitled, 
``Management of the Defense Special Weapons Agency Year 2000 
Program,'' and the IG audit has found that the weapons agency 
didn't complete independent testing of three mission-critical 
systems before classifying them as ready. The articles goes on 
about the agency tested one mission-critical system, the 
Nuclear Management Information System, and two have 10 non-
mission-critical systems, but the IG said the agency classified 
all 13 as 2000 ready. And it goes on in that vein. This 
indicates something about the problem with testing, and I would 
like to hear comments from you about how do we attack this 
problem? What are we doing? Do you agree that this is an 
enormous challenge? Maybe, should I start with you Mr. 
Lieberman, the IG?
    Mr. Lieberman. Fine. That audit report was issued the day 
before Thanksgiving, so it was November, and it reflected the 
situation in that particular agency as of a few weeks before 
that. Those particular systems, by the way, are back on track. 
The last two of them will be----
    Mrs. Morella. Mr. Inspector General, this actually had been 
published, though, on January 25th.
    Mr. Lieberman. The press article, yes. All of the systems 
discussed in the audit report will be implemented by the end of 
this month, as a matter of fact. However, we had a lot of 
problems initially with the managers of systems prematurely 
certifying that they had fixed and validated the fix on their 
systems. I think that the problem is behind us. The Department 
went back and looked at all the systems that we had not late 
last year, and quite a few were moved backward in terms of the 
reporting. That is, they were decertified. One of the reasons 
why the percentage of completed systems had apparently dropped, 
and I would say that was to the good, because it was a more 
accurate representation of where we really were. We are now 
past the point where, for most systems, we are talking about 
individual system level testing and certification anymore. Now 
we are talking about group tests, end-to-end tests, or system-
of-systems tests.
    Once again, I think you are absolutely right, we have to 
fight against any tendency to replace numbers of tests for 
rigor of testing, and there is a difference there. We have to 
do something to make sure that all these tests have the proper 
technical support while they are being run. An awful lot of 
things are happening at the same. The crunch is going to come, 
particularly, in the May, June, July timeframe, when the 
functional end-to-end tests kick in. Right now, we are just 
doing a few of these operational evaluations, so there is still 
a limited demand for technical expertise. But it is going to be 
tough to support all these tests adequately at the same time.
    And the last thing I would say is that those commands that 
were most ready to do good testing went first. So, we would 
agree, NORAD did a fine job. Generally, the Space Command and 
the Strategic Command are way ahead of the other unified 
commands. So, they went first, did a good job, as would be 
expected, and had good results.
    There are other commands that have different kinds of 
challenges, and I think the overseas commands, the big 
combatant commands, particularly, the Pacific Command, European 
Command, Central Command, are going to have a much more 
difficult time, for no other reason than they have real-world 
operational considerations that are going to distract them 
constantly. So, that still remains a big challenge. I am happy 
with my characterization of it as the most daunting challenge.
    Mrs. Morella. Let's take note of that. Would anyone else 
like to comment on it? All right, Mr. Brock and then Secretary 
Money.
    Mr. Brock. Yes, I think there is another issue. Testing is 
going to be daunting, and Mr. Lieberman is right that the two 
initial CINCs that did the testing had somewhat of an advantage 
over some of the others because they also controlled more of 
their own systems they used. And so, they didn't have as many 
interfaces or dependencies on systems outside their control. 
But, nevertheless, we did find the guidance for those processes 
to be very rigorous. And I want to repeat that, that we were 
very pleased with the guidance.
    Other tests that are coming out, as I have also mentioned 
in my statement, for some of the functional areas have not been 
defined yet. And that is our concern. These tests probably 
aren't as rigorous or require the same level of rigor found in 
operational tests, but by the fact that they aren't defined and 
some of them aren't scheduled, makes us wonder when they will 
be squeezed in.
    Second, there is a whole issue which we really haven't 
addressed today, and that is the need to develop contingency 
plans or business continuity plans. The vast number of mission 
threads or thin lines or business processes that we have been 
talking about today, for the most part, still need to be 
developed, and also need to be tested. And so, the Department 
has a fair amount of work to do in a relatively short period of 
time.
    Mrs. Morella. Try to follow that Secretary Money.
    Mr. Horn. Mr. Money. She has asked my questions, so take 
your time.
    Mr. Money. Back to the article. The article suggested that 
there was a fraudulent entry, and so forth. When that was 
published, the Deputy Secretary and myself, we called every 
service, every Defense agency, into the room and the high-level 
people in each of those services, like the vice chiefs and/or 
agencies attested to that their reporting, in fact, is accurate 
and not fraudulent. There was a misinterpretation, by the way, 
in the test plan. We requested that there be an independent 
signoff, not just the program manager or whoever was on the 
particular program. I believe we are past that. By no means do 
I want to minimize the testing that we performed.
    I see a very important date, somewhere around the end of 
March, March 31st, because we will have had the operational 
test, at least one series of those. We will learn a lot from 
that. I don't expect that every one of these will fly through 
with no hiccups and no problems. In fact, we will focus on some 
where those may be.
    Let me use an example of a few months ago; we had a test 
down at White Sands Missile Range, an end-to-end, and it 
flunked; it failed miserably. Went back and fixed the systems, 
had another one, roughly, I think it was about 3 months later--
this is about 3 months ago--and it flew. We were even doing 
telemedicine to some remote village. So, we will go through 
that.
    Relative to the functional testing, those were addressed 
later. A lot of the non-mission-critical area falls into there. 
But there are, to varying degrees, contingency plans. Let me 
give you an example.
    When Dr. Hamre talked about the DFAS going through the fed, 
going to various banks, when that is exercised, if we see any 
problem with that, we will then go back and buy check stocks so 
we can issue checks the old way versus electronic funds 
transfer. Frankly, I am holding onto that. That is $4 million I 
would rather spend somewhere else. We will make that decision 
roughly the end of June. That is time enough to get the checks 
in place, and so forth. So, we are working through those. By no 
means do I want to sit here and claim that we have this 
whipped, that we have thought of every aspect.
    One of you asked me earlier, what do I worry about? It is 
what we haven't thought of. You don't know what you don't know, 
what is going to come back and bite us in that way. But through 
the various tests and the extensiveness that we are trying to 
address those, we hope to uncover, discover, if you will, what 
is out there that we need to fix.
    Mr. Horn. Any other questions on that or other people?
    Mrs. Morella. I think Admiral Willard wanted to comment on 
that.
    Admiral Willard. Mrs. Morella, I would comment that, with 
regard to magnitude of testing, that there was a methodology 
applied to determining what would be tested, for example, in 
the operational evaluations. And that methodology dealt with 
determining the missions of each of our unified commanders and 
the tasks that supported those missions and picking the most 
critical tasks. There is no shortcut being applied to the 
architecture that supports that task. So, it wasn't arbitrary. 
On the contrary, it was very methodical.
    With regard to the points that Mr. Lieberman made on the 
paucity of technical expertise, that is a challenge that we 
continually face. By and large, when we have date functions in 
systems, we require the systems expert from the program manager 
of that system to be present to assist us in rolling clocks 
forward and rolling clocks back and restoring systems to 1999. 
It is a challenge associated with all of our evaluations, and 
we are spreading that expertise thin, as you can imagine. The 
ratio of technical expertise to systems with clocks averages 
about 0.75 to 1. I mean, we need nearly as many technical 
experts as we have systems with clocks as we step through these 
functional end-to-end tests and operations evaluations. So, 
scheduling those individuals is crucial.
    On the point that was made regarding the fact that the 
CINCs that are farthest along are conducting their operations 
and evaluations earliest is true. And we are doing that because 
our data base captures the lessons learned and results of those 
evaluations, and in turn, they are spread about the other 
CINCs. So, those CINCs that are challenged the most, that are 
overseas, that are busy in other areas of the world, or that 
have chosen the most difficult tasks to OPEVAL, have the 
benefit of these earlier evaluations, successes and failures to 
draw on. So, we are sharing lessons learned across them all, 
and we hope that by the time we get to the most difficult and 
most challenged unified commands, that they would have absorbed 
a great many of the lessons from the earlier evaluations. So 
that too, I think, is being done very methodically.
    And then my last point would be this: Again, back to the 
magnitude of testing, I think as the Services comment, you will 
find that the rigor with which they are testing is generally 
through very time-tested methodologies to test their various 
systems. They are not inventing a lot of new things. In the 
case of CINC OPEVALs and picking architectures according to 
task, that was relatively new to us. But many of the 
integration tests are leveraging off of very rigorous 
integration tests that we have performed on our weapons 
systems, and other systems for many, many years with success.
    Admiral Johnson. I would like to quickly address a couple 
of things, sir. One of them is the concern about shortchanging 
testing. A huge quantity of testing is completed by the program 
managers in their validations. That is complete for about 91 
percent of the Navy systems right now. And now we are in the 
fielding business. What our experience in operational 
evaluations has found is that the testing was rigorous because 
we aren't finding problems in our operational validations.
    The operational testing is being run by operational 
commanders. They are defining the scope of testing, and they 
are calling upon the SYSCOM commanders and other technical 
experts to provide the support they need in order to satisfy 
them that the systems that are being deployed, in our deployed 
units, are in fact, going to work and provide them the 
capability they need.
    Another comment, and I am shifting to a separate subject, 
and that is on the area of contingency planning. We think we 
are very, very far along in the area of contingency planning. 
We have worked with our operational commands and our shore 
establishments to develop a contingency planning guide which we 
published last November. Our operators already have casualty 
procedures and operating procedures in place to deal with 
system failures. They do that on a daily basis. We have backup 
and redundant systems.
    And what we are doing is exercising those capabilities they 
already have and their operational capabilities to shift to 
backup systems or backup methods in the event of a system 
failure, and we are exercising those procedures in our 
operational evaluations. We already have disaster preparedness 
plans at our bases. We are looking at those in terms of year 
2000, and making sure that those disaster preparedness plans 
reflect the year 2000 aspect of it, and will be ready to be 
implemented, if necessary. So we think the contingency planning 
aspect of that is much farther along than a lot of people 
think. And we are exercising all of those contingency plans and 
continuity operational plans in our operational evaluations.
    Mr. Horn. Admiral, as you have mentioned, contingency 
plans, and before General Ambrose does, I am reminded with Mr. 
Money's comment, they are going to go back to just writing out 
checks. There is even an earlier contingency plan the Navy 
practiced, which was just pay it out in cash and sign for it, 
which was what the Senate did when I came there in the 1960's. 
They had some Navy officer, who is now comptroller of the 
Senate, to just passing it out in cash. And I remember one 
basic commander, General Ambrose, who paid the whole base in $2 
bills. And believe me, community relations went up with the Air 
Force when they saw thousands of $2 bills out there.
    But go ahead.
    General Ambrose. Until about 4 months ago, I was the 
Commander of Offutt Air Force Base in Omaha, NE, and 
fortunately, we have had such a tremendous relationship with 
downtown, I didn't need to do the $2 bill thing, but it will be 
a good hip pocket thing to hold.
    I would just like to point out, just a couple of days ago, 
our auditors presented a report to me on a phase validation we 
asked them to do. Basically, we asked them to go back and take 
a look at a sample of the systems that we have certified, 
across all criticalities, not just mission-critical, and take a 
look at the process, and the exit criteria for going through 
each step of the process, and make sure we did that right. And 
they went out and looked at 267 systems, most of which were 
chosen at random, and they reported no testing discrepancies of 
any kind, and in fact, only a couple of minor discrepancies of 
any kind, not a statistically significant number.
    In terms of OPEVALs, and especially the end-to-end tests, 
we are spending a lot of time right now making sure that when 
we test, the quantity and the quality are both what they should 
be, and that we are testing the right processes and the right 
systems. And realistically, you can't test every possible way 
that you will use even your mission-critical systems. So, what 
you must do is ask how do we use these in the preponderance of 
our operations and that is what we will test.
    Now, we are ready for the unexpected things that occur, 
because we have told our program managers and, more 
importantly, we have told our commanders that you need to take 
a look at all that you do from the standpoint of what is it 
that you can't stand to shut down, and then have another way to 
do that thing. And that is how, I think, the entire Department 
is approaching Y2K. So, if the computers work, and we think 
they will, great. If they don't work, we will continue to do 
business because we have another way to do it.
    Mrs. Morella. If I just might mention one thing--with our 
very distinguished military here, and Inspector General, and 
GAO representative, I am reminded--I have mentioned this once 
before at a hearing--of Admiral Grace Hopper. Remember the 
first woman admiral? She is the one who devised COBOL. Don't 
you wonder what she is thinking now, from where she is up with 
St. Peter as she looks down on the need for people who are 
skilled in using COBOL and in remedying this problem that she 
was a little part of?
    And I thank you. Thank you, Mr. Chairman.
    Mr. Horn. Ms. Browning.
    Ms. Browning. Mrs. Morella, I would like to answer two of 
your questions, one, whether we are testing the right stuff----
    Mrs. Morella. Thank you.
    Ms. Browning [continuing]. And two, about the veracity of 
our certification? And by the way, I am sure Grace Hopper is 
laughing in her grave; I would think that.
    What I would like to give you--I don't know if you want to 
enter this into the record, but as to whether we are testing 
the right stuff, the Army looked at its major battlefield 
functional areas, how it does business. We have over 100, what 
we call, mission threads. We have boiled that down to 24 
critical mission threads. This was done not by the techs; this 
was done by the war fighters. So, these are the threads; these 
24 critical ones are the ones that we are testing. And we are 
testing them at the division, at the corps; they are being 
tested in the OPEVALs, in the end-to-end tests.
    We are also, in terms of testing the right stuff, the 
minimum we are doing are four critical dates. And that is true 
across the Defense Department. The September 9, 1999 date, the 
crossover, the midnight crossover on December 31, and there are 
two midnight crossovers on the leap year. Those are the 
minimum. Some tests, especially if they are complicated 
business systems, are testing more. But we are testing those. 
In addition, we have a lot of management controls on the test. 
The Army has been using for over a year and a half the Army 
Audit Agency. There are internal management consultants to Y2K 
from my office. They have been doing very good work for us. 
They are out there asking the questions on the contract 
compliance, on the interface agreements, et cetera, and we 
constantly get reports and updates from them. In addition, for 
our testing, we are going to use our operational tests and 
evaluation command, to sit with us, the technical folks, the 
functional folks, to do that.
    Mr. Horn. Without objection, that exhibit is put in the 
record at this point.
    Ms. Browning. Thank you. Also, for all of our contingency 
plans that we have for mission-critical systems, they not only 
have to have a technical piece, but also a functional piece. 
So, we are looking at that.
    Your second question on the veracity of the certification, 
and this is for the certification of our individual systems, 
for all mission-critical systems in the Army, we require either 
a senior executive service or a flag officer signature on that. 
And we require it in two channels, both the technical or the 
material developer channel, as well as the functional channel.
    We also, again, have those management controls. We have 
sent some of those back from our front offices because they 
haven't looked at everything. We also have the AAA working with 
us on that.
    One final thing, if you ask how I don't sleep at night 
because of Y2K, I would say the thing that probably bothers me 
the most is the outside dependencies. I am very confident in 
the Defense Department, not only in the Army, but the rest of 
the components. It is the outside dependencies, whether they be 
our suppliers, whether they be foreign countries, and the more 
that we can do nationally to get that message out and to 
educate people, I think the more we minimize risks come this 
December.
    Mr. Horn. Well, I take it you are looking at electricity, 
food supply----
    Ms. Browning. Yes.
    Mr. Horn [continuing]. Water, et cetera. I mean, we might 
face a Berlin airlift, I think, in some of these bases, but I 
would think it depends on how distant they are from the main 
source of supplies.
    Ms. Browning. And how robust the infrastructure is around 
them.
    Mr. Horn. Right. And that should be a worry, just in 
general.
    Ms. Browning. Right.
    Mr. Horn. So is the Army asking those questions on the 
contingency plan? Because as I get the reports from the 
Department, and all departments, all 24 of them, we hardly see 
any movement in facing up to a contingency plan. Now, maybe 
they are just optimistic and say, well, gee, we will finish by 
March 31st and we will get the testing done and all of that. 
Very few contingency plans. The one that you see in the 
domestic departments, perhaps the Department of Defense, is we 
will use the United States Postal Service. And the other day, 
we had the Postal Service in, and we said, ``What is your 
contingency plan?'' I didn't snidely say, ``Is it a mailbox?'' 
I just let that pass. But, that is one of the problems on, say, 
getting checks out and everything else to one's employees, 
which have mortgages to pay and all the rest of it. So, that is 
a worry, and yet, I don't see much movement on the contingency 
plan in its reporting.
    Colonel McHale, what about the Marine situation?
    Colonel McHale. Certainly. Ms. Browning mentioned the Army 
developed the critical mission threads. Coincidentally, at the 
same time, at a parallel independent path, the Marine Corps 
arrived at the same conclusion in evaluating and constructing 
our OPEVALs much the same way the Army did. When I heard about 
the Army system, I immediately suspected that we had taken a 
wrong turn some place because we were doing the same thing, but 
it verified that we were doing the right thing.
    On contingency plans, the Marine Corps requires contingency 
plans for all our mission-critical and all our mission support 
systems because of that interdependency of the two systems. And 
we found that, in doing that, that causes us to be more 
rigorous about the way we were evaluating our plans. You are 
concerned about not having contingency plans, I believe, as the 
Department of Defense goes through this process of conducting 
the operational evaluations, conducting tabletop seminars, that 
that will cause us to focus again away from the system-by-
system evaluation and to focus on the larger functional, and, 
in our case, the Marine Corps-wide plan of how we are going to 
operate on day one, how we are going to operate on January 1st, 
and those contingency plans will evolve as we get away from the 
system-by-system analysis.
    One comment about the operational evaluations that we are 
conducting: I am amazed that it turns out that every Marine 
Corps general officer was born in Missouri and they don't want 
to take anybody's word for anything. So as we have developed 
our operational evaluation plan, we have said, these are the 
systems that you have to test in a minimum configuration. And 
we have found in all the operational evaluations that we have 
conducted or are planning to conduct that they are additional 
systems, that our Army systems or Air Force systems, that they 
want to be able to have--if I can use the term ``warm and 
fuzzy'' feeling about--and the Commandant has charged them at 
the time of this operational evaluation cycle, which will 
complete for us at the end of July, that each one of them needs 
to come back to the Commandant and say, ``I can do my 
mission.'' And he is not really going to be concerned about, 
well, it was an Air Force or it was a Navy system that failed.
    A marine commander has to be able to do his mission 
regardless of what systems he has to bring to bear, and that is 
what he is evaluating. So, it far exceeds whatever the 
congressional requirements are for systems that are only Marine 
Corps owned and operated.
    Mr. Horn. Mr. Ose, any further questions? Mrs. Morella, any 
further questions? Mr. Turner, any further?
    Mr. Turner. No, thank you.
    Mr. Horn. I have one last question, and that is on the 
nuclear supply, and this is really directed at Mr. Money and 
Admiral Willard.
    In terms of your weapons support and the use of the nuclear 
suppliers in the United States, has the Department of Defense 
asked these questions of its supplier or have they left it 
generally to the Department of Energy as the cabinet department 
supplier, if you will? Because some people are worried about 
some of our reactors and are there microprocessors in there 
that lead in one condition or the other by--let's take it, we 
are in Illinois. Most of their electrical power is generated by 
nuclear reactors. If we have blackouts, which haven't had 
anything to do with nuclear reactors at this point--and 
sometimes we don't have the slightest idea what contributed to 
that blackout in either the San Francisco situation, the New 
York situation; that was a decade ago. I am just curious, if we 
are looking at suppliers, it seems to me the Defense Department 
has a role in there, and are they worried or not?
    Mr. Money. Yes, sir. If we start with the weapons versus 
the reactors generating power----
    Mr. Horn. Right.
    Mr. Money [continuing]. DOE has that responsibility. DOD 
overlooks that CINCSTRAT in particular.
    Anything you want to add?
    Admiral Willard. Yes, sir. There is a simple answer: By and 
large, the facilities that are owned by the Department of 
Energy [DOE] are being overseen by DOE, and the interfaces to 
those facilities are being checked by the Department of Energy. 
In those areas where an interface exists between our strategic 
commands and those vendors, then Strategic Command is 
maintaining visibility. I think Admiral Mies would assure you 
of that.
    Mr. Money. When it gets to reactors, then that is a power 
generation and that will be a DOE reporting up through John 
Koskinen.
    Mr. Horn. OK. We thank you. We will be pursuing that in a 
couple of months, and obviously, we have got a major concern on 
the nuclear reaction in terms of supply for civilians, as well 
as military indirectly, in some cases.
    Let me just thank the people--and then I will have a few 
remarks here--thank the people that helped prepare this 
hearing: J. Russell George is in the door down there, staff 
director and chief counsel for the Subcommittee on Government 
Management, Information, and Technology; Matt Ryan, senior 
policy director, right behind me here for that subcommittee; 
Bonnie Heald, director of information and professional staff 
member; and Mason Alinger, the clerk for the subcommittee; 
Richard Lucas, our faithful intern; and for the Technology 
Subcommittee, Richard Russell is back of Mrs. Morella, staff 
director; Ben Wu, professional staff; and Joe Sullivan, the 
clerk.
    And for the minority we have Faith Weiss, the counsel, and 
Jean Gosa, the clerk.
    And for our faithful court reporter, it is Leslie Preer.
    I think you have all given some very compelling testimony 
this morning, and it, obviously, pleases all of us that both 
the Inspector General of Defense and the GAO are working 
together, and everybody in all the services seem to be working 
together. So, I commend you for that.
    Let's face it, the safety of our country and other 
countries depend on the Department of Defense's mission-
critical services, and we have been concerned, obviously, that 
the Defense Department seems to be behind schedule, but it 
could be that you are in the Preakness or something and you are 
waiting for the last few laps. I don't know. I have sometimes 
said, with the administration, when it took a long time to get 
them organized, that it was like the ``Perils of Pauline.'' You 
know, she is strapped over the railroad, you think she is a 
goner, next Saturday, she is doing great. [Laughter.]
    And that is when movies were 10 or 15 cents.
    I appreciate Secretary Cohen and Deputy Secretary Hamre, 
and now, hopefully, Assistant Secretary-to-be Money, for the 
leadership they are providing. I think that has absolutely been 
essential in solving some of these problems.
    But we remain concerned about the preparedness and 
potential vulnerability of foreign military bases, and we are 
delighted with the initiative the Secretary took in relation to 
the Russians. I happen to feel very strongly that, if we don't 
win the Russians in with us as part of the western democracy 
down the line, we would have made the biggest mistake we could 
make in diplomacy in the last part of this century. So, I am 
glad those relations were started when General Powell was 
chairman of the Joint Chiefs of Staff; I am glad they are going 
on.
    And I thank all of you for testimony. It is good to know 
that progress has been made within the executive branch. I 
think we still see a lot that has to be done, and some of it 
relates to the national defense, and hopefully, with all of 
your hard work, we will get that job done. And we thank you for 
coming.
    With that, this meeting is adjourned.
    [Whereupon, at 1:12 p.m., the subcommittee was adjourned.]


</pre></body></html>
